<html>
<title> - STRENGTHENING ALASKA NATIVE FAMILIES: EXAMINING RECIDIVISM, REENTRY AND TRIBAL COURTS IN ALASKA</title>
<body><pre>[Senate Hearing 114-191]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-191

                 STRENGTHENING ALASKA NATIVE FAMILIES: 
                   EXAMINING RECIDIVISM, REENTRY AND 
                        TRIBAL COURTS IN ALASKA

=======================================================================

                             FIELD HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 20, 2015

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
         
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
         
         
         
         
         
         
                                 

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-880 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         


                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Field hearing held on August 20, 2015............................     1
Statement of Senator Murkowski...................................     1

                               Witnesses

Coghill, Hon. John, State Senator, Alaska Senate.................     6
    Prepared statement...........................................     9
Jessee, Jeff, CEO, Alaska Mental Health Trust Authority..........    30
Morris, Denise, President/CEO, Alaska Native Justice Center......    33
    Prepared statement of Chet Adkins............................    36
Razo, Gregory, Vice President, Government Contracting, Cook Inlet 
  Region, Inc....................................................    17
    Prepared statement...........................................    21
Singh, Natasha, General Counsel and Tribal Court Judge, Tanana 
  Chiefs Conference..............................................    12
    Prepared statement...........................................    15

                                Appendix

Association of Village Council Presidents, prepared statement....    48
Hudson, Audrey M.L., Mayor/City Manager, Metlakatla Indian 
  Community, prepared statement..................................    50
U.S. Department of Justice, prepared statement...................    47

 
STRENGTHENING ALASKA NATIVE FAMILIES: EXAMINING RECIDIVISM, REENTRY AND 
                        TRIBAL COURTS IN ALASKA

                              ----------                              


                       THURSDAY, AUGUST 20, 2015


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                     Anchorage, AK.
    The Committee met, pursuant to notice, at 11 a.m. in the 
Alaska Native Heritage Center, Hon. Lisa Murkowski, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Good morning, we will call to order this 
meeting of the Senate Committee on Indian Affairs. I want to 
welcome those of you who are joining us this morning. I hope 
you've got good sound in the back, is it working back there? 
Okay. All right.
    I want to thank the Alaska Native Heritage Center for 
allowing us to be here this morning in their beautiful, 
beautiful facilities and I think it's somewhat notable that we 
are surrounded by not only Yupik culture as I look around, 
truly all of our Native cultures are reflected in these 
beautiful spaces here this morning, and so many friends from 
around the state, leaders in many, many ways.
    We've got a very significant panel of individuals who are 
prepared to provide testimony for us morning and before we 
begin, I would like to recognize the members of the staff on 
the Indian Affairs Committee that have joined by staff, Greg 
Bringhurst, who is working all of my Alaska Native and rural 
issues. Greg has been with me now for several months, but we 
also have Rhonda Harjo who is the Deputy Chief Counsel on the 
Indian Affairs Committee. I've worked with Rhonda for many 
years now when I was the ranking member on the Indian Affairs 
Committee. She does a great job for Indian country around the 
nation here.
    We have Emily Newman who is also counsel to the Committee. 
Jacqueline Bisille who is a legislative assistant again joined 
by Greg. They had an opportunity, I think, to go out to Bethel 
thus far, and hopefully, to gain better understanding of some 
of the challenges that we face here in Alaska, but even more 
so, the many opportunities that we have in front of us.
    We'll begin the hearing this morning in, perhaps, a little 
less traditional manner than you would see in a hearing before 
the United States Senate back in Washington D.C. I would like 
to invite a Yupik elder, Marge Nakak, to open the hearing this 
morning with an opening prayer and we're honored to have you 
with us this morning.

                         OPENING PRAYER

    Ms. Nakak. Good morning to each one of you. In Alaska, my 
Inupiat Native ancestry originates from Big Diomede through my 
mother's father and that gives me my Inupiat name, Olawanna and 
from my grandmother, who is Yupik, I was named after her, her 
name is Mongwanna, which means seamstress.
    We are all blessed to be on this land occupied for many 
years by the local Native cultural group of Dena'ina 
Athabascans. Their belief has been that every natural resource 
and all the animals and sea mammals and birds have a spirit, 
promoting mutual respect between nature and humanity. In honor 
and appreciation toward our Creator, for His benevolent 
provisions. There are still songs and dances and feasts and 
ceremonial potlatches, which are still enriching our lives as 
we express our appreciation and acknowledgment for these 
natural resources in our Alaskan regions.
    The land is our Native foundation for a cultural history 
and evidence still exists throughout the magnificent state in 
ancient settlements that are being unearthed today.
    In our prayer now, we are thankful and acknowledge these 
gifts of the land, the animals, the sea mammals, the birds, the 
fish, the lakes and rivers, the crisp air, the plants and 
berries, the valleys, the tundra and all the terrain in which 
humanity and wildlife, essential for our sustenance and for our 
health is still one of our subsistence ways of life today. Each 
of your presence is welcome, and with heartfelt gratitude, we 
participate in inspiring honor and respect to each one's 
identity. In former times past, our ancestors, through extreme 
changes, established tried and true ways of life to guide us 
with continued focus toward preserving the abundant benefits 
that nature provides for us.
    Our ancestors intense diligence prompts us to carry forth 
these indigenous values while cooperatively enhancing our 
cultures through sharing and strengthening our peoples proven 
achievements throughout the centuries.
    Our implementation of these life ways promotes motivation 
toward harmony in our present, diverse communities. Strands of 
connections tie us together to be successfully in our future 
without endeavors and our blended societies of many origins.
    In radiance as the Northern Lights, each one of us is a ray 
of light and reflects the aurora borealis, which is always 
brilliant in the northern Alaskan skies. May our Creator and 
our benevolent God bless each one of you in all of your work 
for all of our people within this magnificent state. God bless 
you all. Thank you.
    Senator Murkowski. Quyana, Marge, thank you for that 
blessing, thank you for your words to begin this morning.
    One of the things that I respect and admire most is when a 
Native person, whether they be Inupiat from up north or Yupik 
or Athabascan or Tlingit, they always start by introducing who 
they are and they don't say my name is Lisa Murkowski, they 
speak about their family, they speak about where their family 
is from and I've always felt that that is the gracious and 
beautiful way to identify oneself.
    And so I am pleased this morning to identify myself as the 
daughter of Frank and Nancy, one who was born in Ketchikan and 
raised in communities around the state. While my name is Lisa 
Murkowski, the name that I have been given as an adopted 
daughter of the dey chiton is the name Anshawayak, which in 
Tlingit means Lady of the Land and it is an honor and a 
tribute, unlike anything that I have possibly ever been 
recognized with and it's a responsibility that comes with a 
name that I take very, very seriously.
    So today, as we look at those issues, that I think bring 
sadness to us as Alaskans, sadness certainly to our Alaska 
Native people when they look at the grim statistics relating to 
what we see within our justice system here in this state and 
recognize that, in many ways, we are failing our people here in 
this state, we are failing our Native people with a system that 
is just not working right now. And as one who has that 
responsibility as Lady of the Land, it is also one who has 
great concern for the people of the land and ensuring that what 
we do every day is right by them.
    So we have an opportunity here as we take testimony for the 
Senate Indian Affairs Committee to lay out the issues, the 
problems, the statistics and hopefully the solutions or a path 
to the solutions to better our opportunities, for not only our 
Native people, but for all people within our state in ensuring 
that there is a fairness, there is justice and that there is a 
path of hope and opportunity because I think sometimes, our 
justice system is not viewed as a path of hope. If anything, it 
is viewed as just a revolving door of commitment to despair and 
that is not what a justice system should be about.
    There's a great deal of discussion back in Washington, D.C. 
right now about our justice system and the effectiveness of 
what we are seeing within our corrections system, with how we 
deal with sentencing, with just ensuring that our systems are 
right. And it is something that is generating a level of 
concern, but interests from those who are on the far right of 
the political spectrum and those who are on the far left of the 
political system, to attempt to try to find some solutions 
because I think the recognition is, is just building more 
prisons is not the answer or us. It's not the answer for us in 
Alaska, it's not the answer for us in the country, so how can 
we move towards a level of meaningful reform? And that is some 
of what I would like as to attempt to discuss today.
    We know that here, in Alaska, we have some very significant 
challenges related to crime, justice and to recidivism. 
Recidivism is probably one of the more challenging issues that 
we are facing within our justice system right now. Whether it's 
a misdemeanor or a felony offender, our recidivism rates here, 
in Alaska, are some of the highest in the nation, especially 
for our Alaska Native males and this is especially true for 
individuals with lengthy or more serious criminal histories.
    And we have good written testimony that is included as part 
of the record and we will hear from each of those we've invited 
to speak today. But I want to just cite briefly some of the 
statistics that are contained in Mr. Razo's testimony here and 
this comes from the Alaska Prisoner Reentry Task Force's, the 
five-year prisoner reentry strategic plan for 2011 through 
2016. And it notes that, in the lower 48, back in 2009 for the 
first time in 38 years, it says 26 states successfully reduced 
their prison populations, but Alaska was not one of those. 
Alaska was not one that is seeing the rates go down. In marked 
contrast, Alaska has the 11th fastest prison population growth 
in the entire country, the 11th fastest prison population 
growth in the country.
    From 1982 to 2007, Alaska had a 152 percent increase in its 
prison population. In 2009, one in 36 Alaskans were under the 
jurisdiction of the Alaska Department of Corrections. One in 36 
Alaskans under the jurisdiction of the Alaska Department of 
Corrections and this is up from one in 90 Alaskans back in 
1982, so we are on a trajectory that is exactly going the wrong 
way.
    And then of course, the disproportionate number of Alaska 
people that we see incarcerated, these are the statistics that 
we keep reading about that are deeply troubling. Alaska Native 
people make up 15 percent of our state's population, 15 to 17 
percent, but they constitute about 36 percent of all prisoners 
in custody. Again, statistics that we should find alarming and 
that sense of alarm should motivate us to work aggressively to 
address it. And I think the good news for us is that those that 
we have asked to be here today are doing exactly that, working 
aggressively to identify the problems, to identify then the 
solutions that come and what more can we be doing.
    We all have heard the concerns about those who have become 
part of this system, are imprisoned for whatever reason it may 
be and then they're released and they go back into their 
communities and we see a repeat. It might not be the same 
crime, but we see a repeat situation where they fall back into 
the same habits that may have initially led them to their 
involvement within the criminal system and it is this revolving 
door that we know all too well about. We have to do all that we 
can to ensure that whether it's a young man or young women, 
more and more young women and it's my understanding that what 
we're seeing in that population is more young African-American 
women are being involved in the bad end of the criminal system 
here in numbers that are generating a level of concern and 
interest and a focus that we have not seen yet. So what is 
happening, what is going on?
    So I would like to be today's panel again by thanking you 
for what you have been doing around this state. We had hoped, 
greatly hoped that we would have a representative from the 
Department of Justice here with us this morning, someone who 
could be a witness to testify. They clearly have an incredibly 
important role in addressing these issues and I think a greater 
level of engagement from the department would be greatly 
appreciated and I know that, Natasha, in your testimony, you're 
going to be highlighting a little bit of that. It is important 
that, as we work towards solutions, it is not just the State of 
Alaska and the legislature, it's not just the Alaska Native 
Justice Commission that is doing it, it is not just the feds, 
it is everyone working together and so we need to ensure that 
just that is happening.
    What we will do this morning is we will hear from each of 
the witnesses. I urge you to try to keep within about five 
minutes or so, but we're not going to be cutting you off, this 
is important testimony to be delivered for the record. Know 
that you're entire statement will be made part of the full 
Committee record. For those who are joining us in the audience, 
Senate hearings are a little bit different than what you might 
encounter in Juneau, there's not going to be an open mic, an 
opportunity for you to ask your questions, but I will advise 
that there will be an opportunity for testimony to be submitted 
for the record, we'll keep the record open for a couple weeks 
after this hearing is traditionally what we do.
    But after each of you at the table have given your 
comments, then I will proceed with a series of questions, and 
hopefully, it will be good dialogue back and forth, not me 
asking you each one and then we move on. I'd like to have a 
good constructive discussion going back and forth.
    So with that, we will start off, I'll introduce each of the 
witnesses and then we will proceed. We'll begin first with my 
friend and former colleague from the Alaska Legislature, State 
Senator John Coghill from Fairbanks in serving in the 
legislature now--I came in in 1998 and you came in the same 
year, didn't you?
    Mr. Coghill. Yes.
    Senator Murkowski. Okay, so it's been a few years. He has 
been an able leader representing the interior in both the House 
and now in the State Senate. Senator Coghill has been a leader 
in moving the conversation on these very important issues. I 
understand you actually had a hearing just a couple days ago on 
the issue of tribal courts, recidivism and how we deal with the 
reentry issues, so be looking forward to hearing some of not 
only what the legislature is considering, but what you may have 
learned from other states and how we can move forward with 
that.
    After Senator Coghill, we'll hear from Natasha Singh. 
Natasha has been also a leader when it comes to moving our 
state forward and our tribal courts forward in an aggressive 
and strong manner. She is the General Council and Tribal Court 
Justice for Tanana Chiefs Conference, is often an invited 
witness back to Washington, D.C. because of your very able and 
strong voice on these issues, so thank you for being with us 
this morning.
    Next to Natasha is Mr. Greg Razo. Greg and I also go back a 
few years. We were in law school together in Oregon at the same 
time and Greg has gone on to do many, many great things. His 
present role is as Vice President of Government Contracting for 
CIRI here in Anchorage, but you had been out on Kodiak for many 
years and truly a leader representing your people here back 
home. And again, your leadership within the Alaska Native 
Justice Commission and the very specific focus that you have 
given to these critical issues is greatly appreciated.
    And next to Greg, we have Mr. Jeff Jessee, also a long time 
leader, not only in issues relating to what we're dealing with 
today with prisoner population and how to address some of our 
issues as they relate to recidivism and incarceration, but Jeff 
has been a leader for decades now as head of Mental Health 
Trust. He and I worked together years ago to increase the 
alcohol tax here in the State of Alaska because we saw that 
alcohol abuse and use, in so many ways, just killing Alaskans 
and how we could best deal with that, making sure that there's 
appropriate funding going towards treatment and prevention. We 
both know that there is still more that can be done there, we 
both know that there continue to be horrible issues as they 
relate to substance abuse around our country and we see that 
translate here in Alaska in ways that deliver many of the 
issues and the problems that we are speaking to today, so thank 
you for your leadership, Jeff.
    And rounding out the panel is Denise Morris and Denise has 
been an active and a visible leader regarding justice issues 
for so many years, is the head, the President and the CEO of 
the Alaska Native Justice Center. And when I think of those 
individuals that are leading in areas where we are making 
differences, Denise is always part of that conversation, so I 
welcome you to the panel this afternoon.
    So with that, Senator Coghill, we will begin with you and 
look forward to the comments from each of you this morning.

  STATEMENT OF HON. JOHN COGHILL, STATE SENATOR, ALASKA SENATE

    Mr. Coghill. Thank you, Senator. Senator, I also will 
probably have to say I live in the shadow of another man that 
bears the same name as me as John Coghill, he goes by the name 
of Jack and that was actually what got me into the political 
arena, so it's great to walk in the shadow of Jack Coghill.
    Senator Murkowski. Great Alaskan.
    Mr. Coghill. I've enjoyed it. A couple years ago, I was the 
Chairman of the Judiciary Committee. At that point, many of the 
things that we had done in the legislature were meant to be 
tough on crime, but what became more and more clear, during my 
time as the Chairman, that a lot of what was happening was we 
were creating more felons and not changing anybody's behavior.
    And so the tough on crime element was something that I 
began thinking long and hard about, what can we do, and it 
comes from probably a little bit of my background prior to 
being in the legislature as a pastoral worker and I began to 
see people in jail and some of the things that needed to happen 
for them to get their feet back under them, some of the things 
that just didn't happen and some of the things that we could do 
better.
    So having that previous view and now looking at it from 
both an economic and law perspective, I began to think how do 
we hold people accountable, but actually turn those who can 
change their behavior and make a healthier society because 
that's really the aim. In the process of doing that, I 
collaborated with some people to pass what became known as 
Senate Bill 64. It was Johnny Ellis, who's a Democrat, I'd say 
probably a different philosophy than me, I'm a very 
conservative guy, and Hollis French, who was on the committee 
with me at the time and then a good friend of mine, an old 
salty named Dyson. I just turned mine off.
    So Senator Dyson, Senator French, Senator Ellis and I sat 
down and asked could we take the commission that had been 
previously in Alaska in the early 90s and put it together 
looking at the sentencing structure in Alaska, and from that 
conversation, we began looking at what would we put a 
commission together. In fact, the Chairman, one of our retired 
justices is sitting right behind me, and they're doing a 
wonderful job. That actually came into law and we're looking at 
the sentencing structures and the various different things that 
have to happen in Alaska.
    From that conversation, we began to realize that we needed 
some technical support and the Pew Foundation had been doing 
wonderful work throughout the states because the first thing 
you do is you look at what other states have done and they have 
turned the corner on the prison population as you well stated. 
Our prison population is way higher than we would like and it's 
not changing anybody's behavior, so we've got to do something 
better.
    So the Pew Foundation, together with the legislature, the 
Governor and the court system all agreed that we would ask them 
for technical support and they've been helping with this 
commission by just getting stats from other states, best 
practices, things that are working.
    In that Senate Bill 64, we not only put the commission 
together, but we actually started looking at those immediate 
things that we could do for like the 24/7 program, and that is, 
for those who have been caught with DUI, could they do a 
breathalyser twice a day and still be at work, still be 
productive rather than sitting in a jail cell somewhere. And 
that started going forward and that's a work in progress as we 
speak. Some better work of ankle monitoring and some of the 
structure that we put together there.
    So in the written testimony I gave you, I gave you the 
whole list of the Senate Bill 64 requirements. That generated 
another bill that, while this commission is in progress, we 
started looking at best practices from other states and we 
started assembling them in what is now called Senate Bill 91, 
which is in the legislative process as we speak.
    So while the Pew Foundation is helping us and the Justice 
Commission is working together with the Native Justice Center, 
and generally having a broader conversation on what can we do 
better, you'll see recommendations coming out that will 
probably find their way into that Senate Bill 91. This is a 
work in progress, it's just like you said, Senator, we're at a 
place we don't want to be and we've got to move forward and 
move out of there.
    During this conversation, one of the things that became 
clear to me is that, in the dynamic changing world that we live 
in, the State and the Tribal Courts have really not worked 
out--the best working relationship. There's some MOUs that are 
working fairly well on the civil issues and most of those came 
from work that was happening in the Child in Need of Aid area 
and the Indian Child Welfare Act, things that I've been 
involved with probably from the day I got in the legislature 
because of trying to protect families. In fact, early on in my 
legislative career, I tried to get the Indian Child Welfare 
standards and the state Child in Need of Aid standards closer 
together because they were quite disrupt [sic] and families 
were languishing because of our laws not helping grandparents, 
parents and communities be involved.
    And so even though we can't align them perfectly, they're 
better aligned than probably they have been before, but we 
still went into court cases many, many times over how do we 
handle these things, and in the process of time, the Native 
groups and the tribal groups have begun what I'd call a pretty 
decent justice system that I would say is maturing and the 
State has had some struggles, there's no doubt about it, how to 
work with them legally, technically.
    And what I found out about this MOU working with them in 
civil areas, and so I drafted Senate Bill 117, which would 
create a way to have what we call a diversion program on some 
of the smaller criminal issues that would allow the courts to 
work with them in a little broader range. And the reason I 
think that's important, Senator, is they can use restorative 
justice ways that the state just has a hard time getting to and 
I think that's going to, at the front end, keep people from 
coming into prison while Senate Bill 91 will work with ways to 
reenter them into society in a better way. But it's true that 
disproportionate share of people in our incarcerated facilities 
are not only Native, but they have behavioral health issues and 
those things just have to be addressed and I think the tribal 
courts is one way and other accountability methods is a better 
way than say sitting in a jail cell.
    One of the things the State has done well, and I'm hoping 
this Committee will take seriously, is we've had a good working 
relationship with the Village Police Safety Officers, VPSOs 
they call them. The State has put--I got a little sheet for 
your perusal. Over the last 20 years, we put about $200 million 
into it where we've had good working relationship between the 
State and the Native Corporations for these Village Public 
Safety Officers. They're not just police, they're search and 
rescue, they're counselors, they're people who will be there 
when an EMS is needed and these people do work with the State 
and for that community that is unparalleled.
    It's a work in progress, we've had good days and bad days 
with the VPSOs, but I can tell you having somebody in the 
community has slowed down domestic violence, sexual assault, 
it's demonstrable and we just haven't done enough probably, 
there's more that can be done. But that is one relationship 
that has worked good with our public safety officers and our 
Department of Corrections because they do a lot of the 
probation officer work right there in the community, right 
there where they know the people and see the people in the 
community.
    So as you said, we had two conferences here just recently. 
The National Conference of Sentencing Commissions was just here 
in Girdwood meeting just this weekend, so I got to do one of 
the opening addresses and got to listen to the benefits, 
successes and some of the trials that other States had 
implementing what they call a justice reinvestment and that is, 
what can we do to turn the corner on prison population and 
reinvest that into programs that give people opportunities for 
success and whether it's a driving license or whatever it may 
be. So we learn from them and then we brought the Pew people to 
a join judiciary committee meeting the very next day and had 
the Pew people show us what they've seen statistically from 
other states and how that's turned the prison population down 
and how actually crime rates go down and people actually become 
healthier and more productive in society. Many, many good 
things, some of them are incorporated in Senate Bill 91, some 
will come from the recommendations of the commission that we 
put together, the Justice Commission.
    So I'd say even though I got to be the lead dog on some of 
these issues, it was a broad base support, it was bipartisan, 
we're looking at building another jail or sending people out of 
State and for why? For a healthier society. So everything from 
driver's licenses to keeping less victims being victimized is 
the things that we're talking about, it's a broad range of 
issues.
    I appreciate you bringing this to light in your Committee 
and I gave as clear as what we're doing in those three Bills. 
It's not the only thing that's happening, some of the budgetary 
work that we're doing in our budget, even though it's austere 
as can be, our behavioral health world actually took a little 
extra this year because we know that is going to be part of the 
solution to turning the corner for many people.
    So I appreciate the time to testify and I'll be here, 
available for questions on what the legislature's doing and how 
we see the State interacting.
    [The prepared statement of Mr. Coghill follows:]

 Prepared Statement of Hon. John Coghill, State Senator, Alaska Senate


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Murkowski. Great, thank you, Senator Coghill, 
really appreciate your leadership on this. Natasha Singh, 
welcome.

 STATEMENT OF NATASHA SINGH, GENERAL COUNSEL AND TRIBAL COURT 
                JUDGE, TANANA CHIEFS CONFERENCE

    Ms. Singh. Thank you.
    Thank you for holding today's hearing focused on 
strengthening Alaska Native families. In the past, unfounded 
fears surrounding tribal authority have prohibited discussion 
on how tribal courts can work with the State to reduce 
recidivism and make reentry more successful.
    Today, because of leaders like yourself, Senator Murkowski, 
Senator Coghill, Governor Walker, the discussion is able to 
move forward as tribes offer innovative ways in which tribal 
programs can work with State and Federal programs in order to 
improve the safety of our State and provide for strong Alaska 
Native families.
    It is a privilege, an honor to testify on a topic, which 
has the potential to bring fundamental and desperately needed 
change across Alaska.
    My name is Natasha Singh, my parents are Karm and Renee 
Singh, my grandmother is Valerie Matthew and my grandfather is 
the late Steven Matthew. I'm from Stevens Village, I'm a 
Stevens Village Tribal Judge and I'm General Counsel for Tanana 
Chiefs Conference.
    This testimony will provide an overview of Alaska Native 
Tribal Court successes and how this Committee can improve those 
success stories and make for stronger communities and stronger 
families.
    There are 229 Alaska Native tribes and approximately a 
third of those tribes have formal tribal courts. Tribal courts 
currently handle child protection, adoption, domestic and 
family violence, substance abuse issues and juvenile cases. 
Tribes know that over 95 percent of child neglect, sexual abuse 
violence and juvenile issues stem from substance abuse. Armed 
with this knowledge, tribal courts focus on addressing the 
underlying issues of substance abuse.
    Unfortunately, these underlying issues are often childhood 
traumatic events including child rape, child molestation, child 
abuse and the issues are so deeply rooted that what we have 
found in the tribal court system is that it's an entire 
community that needs to focus on the healing and this is what 
you see tribal courts engaging in. Community or restorative 
justice, peace making, those are the terms that are often 
described on this tribal court approach.
    Tribal courts are not replicas of western court systems. 
While they're required to follow the Indian Civil Rights Act, 
they also incorporate judicial practices from the tribal 
governments that existed before the federal and state judicial 
systems made an appearance on our land. Practices that seek to 
heal the individual, heal the family and address underlying 
issues have worked to restore tribal communities for centuries 
and they work today.
    Now in my written testimony, I get more detailed into 
exactly why tribal courts are working in rural Alaska, but I'd 
like to paint a picture for the audience and for you, Senator, 
of a circle system and it's hard to do justice to and explain 
in words the circle system. But imagine a circle--a tribal 
court circle sentence in which we have two main individual 
participants to focus. A 30-year-old male who is a perpetrator 
of domestic violence and his father who's a 60-year-old male 
who is also the perpetrator of domestic violence. They sit in 
the community in a circle, the entire community is invited 
including VPSO, Troopers, religious leaders, elders, youth. 
Sometimes if school's in session, an entire high school will go 
to this circle to hear the lessons.
    And really, what comes out of these circles is the truth 
and it's hard to get to the truth in other systems, but the way 
the circle works is everyone has an opportunity to talk about 
the impacts of what the individuals are doing to the community, 
to their families, to their children. Victims are able to 
address their assailants. Children are able to address their 
parents. In this instance that I'm thinking of, the 30-year-old 
who is also a father, was able to address his father who is the 
60-year-old and tell him the impacts that he had from watching 
him beat up his mother his entire life.
    And those lessons learned from those kind of the outskirts, 
in seeing the dynamic unfold, really provided accountability to 
all participants, but especially for the 30-year-old. The 
success there was that we haven't seen the 30-year-old repeat a 
domestic violence offense. Now the 60-year-old has repeated, 
but what's interesting is the 60-year-old's wife has chose to 
disengage in that relationship.
    This is the practice that works for our people, these 
issues are deeply rooted. Oftentimes in the circle, we invite 
health aids, behavioral health aides, those experts who can get 
our people on track. Case plans are often suggested and 
individuals are asked to submit assessed behavioral health and 
mental health assessments and follow the recommendations.
    Now the tribal court model works for the limited cases our 
tribes are able to handle with purely volunteer courts. There 
is very little funding or confirmed authority for what has been 
described, yet tribal leaders are dedicated to improving their 
communities, and so they continued the healing practices that 
have been done for centuries.
    Tanana Chiefs Conference is one of the only entities that 
provides technical assistance for tribal code and ordinance 
drafting necessary to ensure tribal processes meet the 
standards of the Indian Civil Rights Act and traditional laws.
    Tribal courts need more in the form of confirmed authority 
and funding to have an impact necessary to change our 
communities for the better. Sixteen months ago, this Committee 
held an oversight hearing on the Indian Law and Order 
Commission Report, a road map for making Native America safer. 
Now I'm pretty sure the staff and yourself have read the report 
many times. The statistics submitted by my colleagues go over 
what the report entails, and basically, the report kind of 
summarizes what I experienced this weekend when I was visiting 
a village and just hearing the youth talk about violence and 
suicide like it was normal, it's acceptable, there's no shock 
value anymore in our communities, it's accepted. The vision we 
have for rural Alaska is healthy communities or this is not 
acceptable.
    I want to contribute in Tanana Chiefs and the tribes and 
now the State will contribute to communities in which youth 
talk about healthy lifestyles. The status quo in our villages 
is unacceptable in any civilized country, is unacceptable in 
America and in Alaska. The State Judicial and Law Enforcement 
System does not serve rural Alaska well due to reasons of 
funding size, remoteness, hubs centralization and deep cultural 
divides. The system will never serve rural Alaska well. What is 
needed is a new world order in rural Alaska, but one that is an 
old world order in Indian policy and one that is very familiar 
to this Committee, enhanced tribal self-determination at the 
local level.
    Today we asked you add to the tools Alaska tribal 
governments need to strengthen our families to address the root 
causes of substance abuse. What is needed is federal 
legislation, which recognizes the authority of our tribal 
governments to deal in the first instance with issues of local 
domestic violence, sexual assault and substance abuse.
    I applaud this Committee for taking action on specific 
recommendations from the Law and Order Commission's report. 
First, thank you for the repeal of section 910 of VAWA. Next, 
thanks to you, Senator Murkowski, for including language in the 
consolidated and further continuing appropriations act of 2015, 
which mandates the BIA and the Department of Justice to report 
to the relevant committees on the budgetary needs of tribal 
courts PL280 states.
    I hope this Committee will continue to hold the BIA and the 
DOJ accountable for the report, which is now 60 days late and 
that it will be complete in September, but before the end of 
the fiscal year.
    In addition, the tribes of Alaska hope this Committee will 
continue on the progress made on the recommendations from the 
law and order report.
    In conclusion, the tribal court model has proven to heal 
and strengthen families. This model has sustained on very 
little funding or confirmed authority. Federal legislation to 
confirm tribal court authority over domestic violence and 
substance abuse matters coupled with additional funding for 
tribal courts would go a long way to see that individuals and 
families heal. Thank you.
    [The prepared statement of Ms. Singh follows:]

 Prepared Statement of Natasha Singh, General Counsel and Tribal Court 
                    Judge, Tanana Chiefs Conference
    Chairman Barrasso, Vice-Chairman Tester and distinguished Members 
of the Committee--including our very own Senator Murkowski--thank you 
for holding today's hearing focused on strengthening Alaska Native 
families. In the past, unfounded fears surrounding tribal authority 
have prohibited discussion of how tribal courts can work with the state 
to reduce recidivism and make reentry more successful. In 2014, the 
status quo in Alaska marginalized and ignored the potential of tribally 
based justice systems and tribal consortiums to provide more cost-
effective and responsive alternatives to prevent crime and keep all 
Alaskans safe. Today, because of leaders like Senator Murkowski, the 
discussion is able to move forward as tribes offer innovative ways in 
which tribal programs can work with state and federal programs in order 
to improve the safety of our state and provide for strong Alaska Native 
families. It is a privilege and honor to testify on a topic which has 
the potential to bring fundamental, lasting, profound and, most 
importantly, desperately needed change across Alaska.
    My name is Natasha Singh. I am a Stevens Village tribal member, a 
tribal court judge and serve as General Counsel for the Tanana Chiefs 
Conference. TCC is an intertribal health and social services consortium 
of 37 federally recognized Tribes located in the Interior of Alaska. We 
serve approximately 13,000 tribal members living in our villages or in 
Fairbanks. Our territory occupies a mostly roadless area that is nearly 
the size of Texas, stretching from Fairbanks clear up to the Brooks 
Range and over to the Canadian border.
    This testimony will provide an overview of current Alaska Native 
tribal court successes and ways this committee is able to improve 
tribal courts for safer communities and stronger families.
    There are 229 Alaska Native tribes in which approximately one-third 
have operating formal tribal courts. Tribal courts currently handle 
child protection, adoption, domestic and family violence, substance 
abuse issues, and juvenile cases. In the TCC region alone, we have over 
150 on-going child protection cases.
    Tribes know that over 95 percent of child neglect, sexual abuse, 
violence and juvenile issues stem from substance abuse. Armed with this 
knowledge, tribal courts focus on addressing the underlying issues of 
substance abuse. Community or restorative justice, or peacemaking are 
terms sometimes used to describe this approach used by tribal courts. 
Tribal courts are not simply replicas of western court systems. While 
they are required to follow the Indian Civil Rights Act they also 
incorporate judicial practices from the tribal governments that existed 
before the federal and state judicial systems made an appearance in our 
lands. Practices that seek to heal the individual, heal the family, and 
address underlying issues have worked to restore tribal communities for 
centuries and they work today. Alaska Native tribal court practices are 
successful because:

  <bullet> The parties involved know the tribal court judges. In 
        western courts this might be seen as possible judicial bias, 
        but for tribal courts this is a proven strength. First, the 
        judges know the family history of an individual which provides 
        insight to the underlying causes of the substance abuse. 
        Second, parties to tribal courts often interact with the tribal 
        court judges on a daily basis which provides for additional 
        accountability.

  <bullet> The community is invited and involved. Circle courts provide 
        a forum in which the community is invited to sit and discuss an 
        issue in a circle format. The community is able to participate 
        to ensure individuals and judges see the full picture of the 
        history and impact of an individual's unhealthy behavior. 
        Finally, with the community involved, individuals are more 
        accountable. Children may address their parents, victims may 
        address their assailants, elders address the community, all in 
        a safe, open and often religious circle in which the truth 
        emerges and healing begins.

  <bullet> The focus is to heal rather than to punish. Formal procedure 
        is set-aside to ensure outcomes are achieved. If a juvenile is 
        drinking, it is often because there are issues with the 
        parents. If a mother is cited for domestic violence, there are 
        likely child protection issues. State courts address cases by 
        isolated incidents whereas tribal courts address cases by 
        families. The circle's participants provide suggestions for an 
        individual and a family. Sometimes, a case plan is worked out. 
        Sometimes parents are paired with other parents that have 
        successfully worked a case plan in the past. Individuals obtain 
        the necessary mental health and behavioral health assessments 
        and community support is identified.

    The tribal court model works for the limited cases our tribes are 
able to handle with purely volunteer courts. There is very little 
funding or confirmed authority for what has been described, yet tribal 
leaders are dedicated to improving their communities and so they've 
continued the healing practices that have been done for centuries. 
Tanana Chiefs Conference is one of the only entities that provides 
technical assistance for the tribal code and ordinances drafting 
necessary to ensure tribal processes meet the standards of the Indian 
Civil Rights Act and traditional laws. The funding TCC receives is 
often grant based and not guaranteed. Tribal courts need more in the 
form of confirmed authority and funding to have the impact necessary to 
change our communities for the better.
    Sixteen months ago this Committee held an oversight hearing on The 
Indian Law and Order Commission Report: A Roadmap for Making Native 
America Safer. That report was a mix of new research and a summary of 
many past studies, all of which have documented too well the severe 
crisis facing Alaska Native tribal communities. The interconnected 
scourges across rural Alaska of domestic violence, sexual assault and 
rape, child abuse and neglect, and substance abuse are undeniable, and 
the time for positive congressional reform is long overdue.
    The status quo in our villages is unacceptable in any civilized 
country. It is unacceptable in America. And, it is unacceptable in 
Alaska. The Law and Order Commission's report repeats what has been 
amply documented for decades: that (1) the state judicial and law 
enforcement system does not serve rural Alaska well, and (2) due to 
reasons of funding, size, remoteness, hub centralization, and deep 
cultural divides, that system will never serve rural Alaska well. What 
is needed is a new world order in rural Alaska, but one that is an old 
world order in Indian policy, and one that is very familiar to this 
committee: enhanced tribal self-determination at the local level.
    Forty-four years ago President Nixon proclaimed an enlightened new 
federal policy of tribal self-determination, and Congress responded 
with scores of new initiatives designed to make self-determination a 
reality and a success for the Nation's Indian tribes. In time, one 
small volume of the federal code grew to four, and in due course many 
tribes across the country made enormous strides toward greater self-
determination. Yet some of the most important of these initiatives have 
missed Alaska villages.
    But fortunately, these legal errors can be corrected, and new legal 
rules established that will support and add to the tools Alaska tribal 
governments need to strengthen our families, and to address the root 
causes of substance abuse. What is needed is federal legislation which 
recognizes the authority of our tribal governments to deal in the first 
instance with issues of local domestic violence, sexual assault, and 
substance abuse. That is what is needed, that is what Commission after 
Commission has called for, and that is what Congress, alone, can 
accomplish.
    Such measures, taken on this limited and regulated basis, is an 
important--indeed vital--first step in securing Alaska tribes the tools 
necessary to realize greater local self-determination and to deal 
specifically with issues of domestic violence and substance abuse. 
Local control in these areas will assure that (1) actions are taken by 
the authorities having the greatest local knowledge; (2) actions can be 
taken locally to intervene in unstable conditions which, if unchecked, 
would otherwise lead to criminal acts, assaults or worse; (3) actions 
can be taken by those who are in the best position to swiftly respond 
to developing situations.
    I applaud this Committee for taking action on specific 
recommendations from the Law and Order Commission's report. First, 
thank you for the repeal of Section 910 of Title IX of the Violence 
Against Women Reauthorization Act of 2013. Next, thanks to Senator Lisa 
Murkowski for including language in the Consolidated and Further 
Continuing Appropriations Act of 2015 which mandates that ``within 180 
days of enactment of this Act, the Bureau [of Indian Affairs], in 
coordination with the Department of Justice, is directed to report to 
the House and Senate committees of jurisdiction on the budgetary needs 
of tribal courts in [Public Law 280] States.'' See 160 Cong. Rec. 
H9764-5 (Dec. 11, 2014). The Law and Order commission has identified 
funding for tribal courts as an issue and our Senator has taken this 
recommendation seriously.
    We thank Senator Lisa Murkowski for her leadership in requiring 
this report under the Act because the report is absolutely fundamental 
to understanding the scope of the public safety epidemic facing tribal 
in Alaska. The report will allow Congress to identify the true need 
facing our tribal nations and quantify the amount of funds it will take 
to address this need. Obtaining this budgetary data is an obvious first 
step to addressing the public safety situation in our communities.
    Unfortunately, the joint BIA and DOJ report was due to Congress in 
June, but it has not yet been completed. The Tanana Chiefs Conference 
met with the BIA in February and July, and sent a letter in April, 
advocating for the completion of this report while also offering our 
technical assistance and expertise. The BIA and DOJ declined TCC's 
offer and proceeded without our help, but they have yet to produce the 
report. It is now 60 days overdue. We appreciate that the BIA attended 
the Alaska Tribal Court Development Conference earlier this month but 
what we really need from the BIA at this point is the report. I hope 
that this Committee will continue to hold the BIA and DOJ accountable 
for the report and that it will be complete in September before the end 
of this fiscal year.
    In conclusion, the tribal court model has proven to heal and 
strengthen families. This model has sustained on very little funding or 
confirmed authority. Federal legislation to confirm tribal court 
authority of domestic violence and substance abuse matters would go a 
long way to see that individuals and families heal.

    Senator Murkowski. Thank you, Natasha, I appreciate it a 
great deal and know that I too, am really irritated at BIA, DOJ 
for thus far ignoring us on that letter, so we're going to get 
some action there. Welcome to the Committee, Greg.

     STATEMENT OF GREGORY RAZO, VICE PRESIDENT, GOVERNMENT 
              CONTRACTING, COOK INLET REGION, INC.

    Mr. Razo. Thank you, Senator. For the record, my name is 
Gregory Peter Razo, I live here in Anchorage, Alaska, I work 
for Cook Inlet Region Incorporated and I welcome the Senator 
and the Committee to our region.
    I've been involved in justice since we finished law school 
together and that was back in--for me, it was in 1984. I come 
from Mountain View, Alaska. I'm an urban Alaska Native and 
that's really a perspective that I bring to things because 
urban Alaska Natives comprise the largest sector of Alaska 
Native population in Alaska because people live here in the 
Mat-Su, the Kenai Peninsula and in Anchorage.
    My Yupik side of the family is from the lower Yukon, my 
grandmother was Matrona Kozevnikoff, she lived in Old Hamilton. 
My family moved to Anchorage in the 1940s. My father is Pete 
Razo and he was a first generation Mexican American from 
Colorado.
    I went to law school and then moved like you intended to 
move back home as fast as we could and get to work. And my 
first job was in Kodiak, Alaska and it was a job that changed 
my life and my perspective because I worked for Roy H. Madsen, 
the first and only Alaska Native judge in the Alaska Court 
System and Judge Madsen, even though it was only for a year, 
stayed in my life to this day. He taught me a lot, and from 
there, I went on to become a prosecutor for 3\1/2\ years for 
the State of Alaska and then I was in private practice, which 
in a small town, is really working on the entire communities of 
various problems from time to time because when you live in a 
small town in Alaska, you have to be involved, you--if you're 
going to be successful and be happy, then you are involved and 
that's just the way it is and I was very involved in Kodiak on 
numerous boards and commissions.
    But in the practice of law, it was going to court every day 
and that's really what serves to inform the testimony that I 
provide to the Committee today. I was actually in court 
representing folks, prosecuting or doing arraignments every 
single day for almost 21 years and then I went to work at CIRI 
and CIRI allows me to continue on trying to meet the needs of 
Alaska Natives.
    So these days, I was recently appointed to the Alaska 
Criminal Justice Commission along with Commissioner Jessee and 
Commissioner Coghill and it has been a fascinating experience 
for me because it has allowed me to focus on what these days 
we're calling smart justice, that a driven justice and the 
ability to access the tremendous and research from Pew has been 
fascinating to me because I learned about the idea of justice 
reinvestment, the idea that we can no longer afford to just 
build prisons. We are not correcting people in our corrections 
system, so what do we do, what's the answer, how do we avoid 
building prisons?
    Well, it takes a comprehensive examination of your criminal 
justice system and we're presented with the shocking data that 
you read. Fifteen percent of the State's population are Alaska 
Natives, 36 percent of the prison population are Alaska 
Natives. In order to get into prison, more Alaska Natives per 
capita are being arrested and sentenced than any other segment 
of the population, so there's a crime problem.
    And how do we deal with those? Those are really difficult 
questions. I will inform the Committee about some of my 
observations and conclusions after that practice, so we know 
what the data is and I'm glad you had a chance to look at my 
written testimony because I think it's important that you bring 
that back to the Committee. The Pew research and especially the 
innovative approach that the Department of Corrections is 
beginning to take in Alaska to come up with a true plan and a 
plan from the street level all the way to the Commissioner's 
Office about intervening in the lives of prisoners, allowing 
them a reentry plan and focusing them one-on-one as if they 
were human beings because they are.
    So I believe, Senator, that the best justice is community 
based justice, and whether that's tribal communities or small 
communities in Alaska, a community based justice is going to be 
far more successful than a unified approach that Alaska uses. 
We have seen where a centralized justice system is simply 
unable to meet the needs of the widespread Alaskan populations 
and unable to understand the cultures and the history and the 
spirit of the people that live in rural Alaska.
    Sending people in by a plane to deal with problems that 
arise on a case-by-case basis, that doesn't work, you don't 
understand how those problems began in the first place when you 
do it that way. So community based justice just makes sense to 
me. I can tell you, on an island, when you live on an island, 
it really tends to develop community based justice apart from 
what the formal rules say because having practiced in Kodiak, I 
can tell you there may have been an official ban on plea 
bargaining, but deals were made right and left every day and 
that's the only way the justice system worked. You had a chance 
to make innovative sorts of plea bargains that would send a 
first-time offender, for example. Rather than have a 
conviction, you could talk to the District Attorney and go in 
and say hey, you know, my client is willing to go over and 
spend, you know, 30 hours at the alcohol treatment agency, and 
if he or she does that, you know, will that satisfy you, do you 
think that's going to be sufficient? Oh, and we might need to 
throw in some community work service.
    But at the end of the day, you could come up with 
reasonable answers to people's problems without throwing them 
in jail and that really--I think it still happens throughout 
Alaska in rural communities to some extent. But we need to 
realize that that can be a norm, that can be how we do business 
in Alaska.
    So what we've been working on in the commission is the idea 
of justice reinvestment, putting the money that we spend on 
prisons into the systems that will help educate and help all 
Alaska people, not just Alaska Natives, but particularly for 
Alaska Natives and particularly for people in rural Alaska, 
those needs are the greatest.
    So I think why not use the systems that we have in place 
throughout Alaska already? Over the years, since the passage of 
the Indian Self-Determination Act and the ability for tribal 
and nonprofit associations to perform healthcare, self 
determinative healthcare on their own, we've established 
amazing institutions that really work hard towards meeting the 
needs of our people. Here in Anchorage, the South Central 
Foundation has been one of the leaders in that area and they 
work with Tanana Chiefs and they work with SEARHC and they work 
with Yukon Kuskokwim and we work together in a consortium with 
health based companies.
    But the other thing I learned, I guess, when I practiced 
was that I never had a client who came to me with just a legal 
need, never did. They always brought other things, you know, 
and I got to the point where I would explain that I'm their 
legal counselor, but we're going to need this counselor and 
this counselor and this counselor to get through this because 
we need to talk about some other issues I'm hearing from you. 
And at the end of the day, it always took this team of folks to 
really--if you're going to make some meaningful change, it 
takes a team. And so that was an education and that's what 
happens in the tribal court setting, it takes a team of people, 
it takes the elders, it takes the spiritual advisor, it takes 
the victims, it takes the whole people involved in what 
happened with this person to try and help them so that they 
won't do it again. That's recidivism, you won't do it again.
    I think that works, I think historically, it has worked for 
Alaska people. I think it happens today and I think we need to 
formalize to that and invest in it. Justice reinvestment is 
about changing the laws so that they will allow for those sorts 
of treatment in jails and for services once a person comes out 
of jail in funding those. But it's not just changing the law 
that's actually agreeing to spend the money that you're going 
to save to help fund the systems that you're building. I 
think--in the area of tribal courts, we've done an amazing job. 
I think Alaska has reawakened to the fact--and Alaska Natives, 
throughout the State, have reawakened to the fact that we can 
be self determinative people and develop justice systems that 
have existed for thousands of years and really use those, use 
those within parameters that make sense for our people.
    But what I worry about, I guess, is that in this time of 
declining oil revenue where the State has far less money than 
it's used to spending, that as we cut the budgets of the 
agencies that are used to funding services for people, that we 
forget that we need to feed this other system if it's going to 
be successful. It's not just a Federal responsibility, it's not 
just a State responsibility, but I do believe it's the 
responsibility of government to foster community based systems 
of justice no matter what they are, whether they're tribal or 
they're cities or unincorporated areas. You know, I just think 
that's the responsibility of government and I think it makes 
sense because it saves money at the end of the day because you 
don't have to build more prisons, right?
    So partnership, we're used to partnering with all kinds of 
folks here in Alaska. We do best when we partner. At CIRI, we 
don't do deals unless we have a partner in with us. The 
partnership that can exist between the tribes and the State and 
the Federal government, I think, is a long way towards the 
answer to this problem of recidivism and reentry.
    So I appreciate the fact that the Committee has chosen to 
focus on strengthening Alaska Native families because it's not 
just about justice, it's not just about tribal courts, it 
really is a system.
    In the written testimony that I provided, I sent in some 
examples of the CIRI nonprofits that are involved in reentry 
services, that's the Alaska Native Justice Center, which you'll 
hear about from Denise Morris. The South Central Foundation, 
which is doing really innovative work, building Alaska Native 
Warriors to combat the issues of domestic violence and sexual 
assault, making sure that there's accountability but treatment 
as well in a culturally appropriate way that people that are 
Alaska Natives will understand and use. I got frustrated when I 
was a daytime lawyer and it was because I would go to court 
over and over and over again with many of the same people over 
and over again and we'd do the same sentence over and over 
again and it just didn't work. I mean, sure, we're going to 
send them to treatment again and then they're going to do this 
again, and a year later, I'm doing that case again, it's just 
deja vu. There's got to be a better way to do it. I think 
community based justice is a better way.
    I really appreciate the fact that you've taken the 
leadership role of directing some money to Alaska to form 
Tribal Justice systems. Our State is a public law 280 State, so 
we don't have the benefit of all of the funding that is 
currently available, which isn't a lot, but there is currently 
funding available for lower 48 tribes. But here in Alaska, 
you're kind of on your own. California shares the same 
situation, but here in Alaska, our tribes don't have land 
bases, they don't have a way to earn income. They have access 
to government contracting, but I will tell you that government 
contracting isn't a great way to make quick money with high 
margins, it's just not that easy for a tribe to enter into 
federal contracting. And they don't have Indian gaming, which 
really is supportive of many, many tribal systems in the lower 
48, so we're truly at a disadvantage when it comes to tribal 
justice systems and the funding of tribal courts and I 
appreciate the difficulty that folks like Natasha and TCC who 
are leaders in tribal court development are taking.
    I guess the other thing, the other partnership I wanted to 
highlight was a partnership that the idea has just come forward 
here in Anchorage and it's just this summer and it's through 
Alaska Legal Services Corporation where I've worked for many 
years on their board. But the idea is medical/legal partnership 
and it's more of the same thing, it's the idea that when a 
customer/owner comes into a medical treatment facility that 
they come not just with a medical problem, but they also come 
with other issues that could immediately make them more well, 
that if we can deal with their housing issue, which is a legal 
problem, then we can make them more well and this idea of 
medical/legal partnership is something that is being explored 
with Alaska Legal Services and the Tribal Health Consortium and 
South Central Foundation.
    So I'm happy to be able to discuss a little bit with you 
today about all of this, and please, if you have any questions 
when we're done, ask them.

    Prepared Statement of Gregory Razo, Vice President, Government 
                  Contracting, Cook Inlet Region, Inc.
Introduction
    My name is Gregory Peter Razo and I live at 2939 Dartmouth Drive, 
Anchorage, Alaska. My e-mail address is: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0a6d786b70654a696378632469656724">[email&#160;protected]</a> I work as a 
Vice President at Cook Inlet Region Inc. (CIRI), CIRI is the Alaska 
Native regional corporation created under the Alaska Native Settlement 
Claims Act of 1971 as the Regional Alaska Native Corporation for the 
geographic region of South-central Alaska. I am a descendant of my 
Yupik (Eskimo) mother and my Hispanic father. My Yupik grandmother who 
helped raise me in our home was Matrona Kozevnikoff . I grew up and was 
educated in the public school system here in Anchorage, Alaska. I 
graduated from Gonzaga University in Spokane, Washington in 1980, and I 
received my law degree in 1984 from the Willamette University--College 
of Law. I was admitted to the Alaska Bar in 1984 and the Washington 
State Bar in 1985. I have remained an Active attorney with the Alaska 
Bar for 30 years. My first job was as the law clerk to the Honorable 
Roy H. Madsen (the only Alaska Native to have ever served on the Alaska 
bench.) I was then an Assistant District Attorney in Kodiak, Alaska for 
3\1/2\ years and then started a general private practice of law in 1989 
until I left to join CIRI in 2005. I have represented juvenile and 
adults in almost every conceivable situation.
    Currently, I serve on the Alaska Criminal Justice Commission, which 
began in 2014. I am President of the Alaska Legal Services Corporation 
and Vice Chair of the Alaska Native Justice Center. I also serve on the 
Board of Directors of the Alaska Federation of Natives (AFN) and Chair 
the AFN Executive Governance Committee and the Resolutions Committee as 
well as serving on the AFN Legislative and Litigation Committees. AFN 
is a state-wide member ship organization founded in 1966 and active in 
promoting the interests of all Alaska Natives. Finally, (for these 
purposes) I am a member of the Alaska Department of Corrections (ADOC), 
Alaska Prisoner Reentry Statewide Council, co-chaired by the Governor 
and Lieutenant Governor charged with steering the Department of 
Correction's new ``Alaska Prisoner Reentry Initiative.'' (Please see 
Attachment Two, of my written testimony which is an ADOC summary of the 
The Alaska Department of Corrections, Recidivism Reduction Plan, 
January 15, 2015 (Revised May 1, 2015) containing the ADOC Alaska 
Prisoner Reentry Initiative.) *
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files and can be found at http://www.correct.state.ak.us/doc/
Recidivism%20Reduction%20Plan.pdf.
---------------------------------------------------------------------------
    Over the past two years, my employer CIRI has allowed me to focus 
on issues concerning justice for Alaska Natives. I began by working on 
the Board of the Alaska Native Justice Center (ANJC.) ANJC was 
established in 1993 by CIRI as a tribal non-profit to address Alaska 
Natives' unmet needs regarding the Alaska civil and criminal justice 
system in response to the increasing disproportionate rates of 
victimization, incarceration and other justice-related issues impacting 
Alaska Natives throughout Alaska.
    Under the Alaska Statute creating the Alaska Criminal Justice 
Commission (ACJC or the Commission), ANJC was asked to appoint one 
commissioner which I lobbied my fellow ANJC Board members to be me. I 
began my service with the Commission by meeting first with its Chair 
(former Alaska Supreme Court Justice Alex Bryner) who wished to impress 
upon me and receive a commitment that I would understand, utilize, and 
maximize my role as the only Alaska Native member of the Commission 
whose recommendations might effect a population of Alaska Natives 
disproportionately represented in Alaska's prisons and substantially 
challenged by the Alaska Criminal Justice system, as a minority 
population. Since October of last year, the Commission has inundated 
each commissioner with information facts and figures to enable us to do 
our important work.
    I appreciate the opportunity to represent my Alaska Native people, 
in my own, way by sharing my thoughts before the Honorable members of 
the Committee, their staff and the public on the important issue of 
``Strengthening Alaska Native Families.'' I hope to share some of what 
I know and have learned concerning ``Recidivism, Reentry and Tribal 
Courts in our home of Alaska. I will also supplement my testimony with 
relevant attachments for the Committee concerning actions currently 
underway here in Alaska.
Recidivism and Reentry
    In 2013, Alaska Native people comprise 15 percent of the total 
population of the entire State. Disproportionately, Alaska Native 
people comprise 36 percent of the Alaska prison population. Overall, 
racial minorities are disproportionately incarcerated in Alaska 
prisons. Consequently, in terms of the overall prison population, 
Alaska Native men and women reentering society from prison are a 
significant and disproportional population. We have great need.
    Alaska Native people may come from a community in remote rural 
Alaska, or their communities may be the urban communities of Alaska 
such as Anchorage, Fairbanks and Juneau. No matter, returning Alaska 
Native people coming out of prison are in need of ``community and 
family support'' if they hope to succeed and not reoffend. Likewise, 
the families and communities (the homes) of Alaska Native prisoners 
need support while their family members are in custody in order to be 
ready to receive this population and assist them in their reintegration 
into productive society. To achieve support towards these goals 
sufficient funding dollars must be budgeted for these purposes, 
however, the prospect of Alaska's potential ``Justice Reinvestment 
Initiative'' gives hope for improvement.
    According to the Criminal Justice Institute (CJI) , ``Over the past 
decade, Alaska's unified jail and prison population has grown by 27%--
nearly three times faster than the state's resident population. Alaska 
currently spends more than $330 million annually on corrections, up 50 
percent since 2005. Despite these expenditures, nearly two out of every 
three inmates who leave Alaska's prisons return within three years.''
    To deal with this reality, in June 2015, Alaska's state leaders, 
Governor Bill Walker, Speaker of the House of Representatives Mike 
Chenault, Senate President Kevin Meyer and Chief Justice of the Supreme 
Court Dana Fabe, launched the Justice Reinvestment Initiative and 
enlisted the assistance of the Pew Charitable Trusts and the Crime and 
Justice Institute in an effort to develop fiscally sound, data-driven 
and evidence-based sentencing and corrections policies. Alaska with the 
help of the PEW-CJI team, is beginning a ``comprehensive review of the 
Alaska criminal justice system, helping the state to develop a set of 
data-driven reforms to better protect public safety while controlling 
corrections costs. The team will work with Alaska criminal justice 
administrators and political leaders and leaders from various 
organizations over the next eight months as they examine the drivers of 
the state's prison population, the policies and practices that are 
affecting the population and criminal justice outcomes and develop 
policy reforms to reduce unnecessary prison growth and improve public 
safety.'' (Attachment One, of my written testimony for the Committee's 
review is a presentation given to the Alaska Criminal Justice 
Commission on ``Prison Drivers'' in Alaska.) *
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files and can be found at http://www.ajc.state.ak.us/acjc/doc/
part1.pdf.
---------------------------------------------------------------------------
    At this time in Alaska, due to the declining price of oil, our 
State is faced with a substantial fiscal problem based upon a lack of 
accustomed oil revenue. This resulting ``budget crisis'' for the State 
of Alaska is forcing all Alaskans to reevaluate how state government 
provides services. I believe that while it is the tendency of 
government to suffer from inertia when faced with the prospect of 
change, at this particular time in Alaska, the inertia is being 
overcome by many new efforts underway to change the way services are 
provided in both rural and urban Alaska to make them effective and 
affordable.
    The State of Alaska is coming to the realization that we imprison 
too many people in Alaska and we cannot afford to build new prisons to 
deal with the consequences of our criminal justice system and racial, 
social and economic challenges. In my opinion, what needs to occur and 
what seems to be happening is a focus on ``community based justice.'' 
Community based justice allows for the use of community organizations 
and structures to supplement or replace the current justice system 
centralized organization management of the State of Alaska.
    Community based healthcare and social service has been shown to 
work in Alaska. Alaska Natives have successfully used their ability to 
achieve self-determination supported by the Indian Self-Determination 
and Education Assistance Act of 1975, Public Law 638, to develop highly 
successful and functional systems of support and advancement for Alaska 
Native people around the State. Since the passage of PL-638, Alaska 
Native Tribes and Tribal Non-Profit Associations have shown that they 
can build, operate and maintain facilities to help meet the substantial 
health and social needs of Alaska Natives. The use of Federal 
Compacting and contracting, along with Federal grant opportunities have 
allowed development of competent systems across Alaska in both urban 
and rural communities. Why can't this system be augmented to address 
the legal/justice needs of Alaska Natives? The answer is that it can.
    For thousands of years, Alaska Tribal nations and communities have 
recognized that there are no lines that exist between health/wellness, 
social, legal and spiritual needs. All of these needs comprise the 
whole person's needs and they all intersect in a myriad of ways. In 
July of this year, a conference on ``Medical-Legal Partnerships'' was 
held by Alaska Legal Services Corporation. The presentation made the 
case that legal intervention early on in the case of a person seeking 
medical treatment can serve to resolve many of the problems affecting 
their wellness. Early legal intervention can help resolve homelessness 
and unfair eviction, denial of social security benefits and food 
assistance, employment discrimination, and the list goes on.
    Law/Justice, Health/Wellness and Social Services exist in a 
continuum of care for Alaska Native people and everyone.
    Examples of existing Alaska Native organizations partnering with 
Federal and State government on Reentry and Recidivism issues affecting 
Alaska Natives:

    Southcentral Foundation (SCF)
    SCF is an Alaska Native-owned, nonprofit health care organization, 
founded by CIRI, serving 65,000 Alaska Native and American Indian 
customer/owners in Anchorage, the Matanuska-Susitna Borough, and the 55 
rural villages that make up the Anchorage Service Unit. SCF's mission 
is: Working together with the Native Community to achieve wellness 
through health and related services.
    Southcentral Foundation surveyed its community and identified three 
top needs; domestic violence, child abuse, and child neglect. SCF 
created the following corporate objective to reduce the rate of 
domestic violence, child abuse and neglect. This objective has been 
incorporated in work initiatives throughout SCF's 80 programs.
    SCF's Family Wellness Warriors Initiative (FWWI) is one of the 
programs developed as a response to these serious threats to the health 
and wellness:

  <bullet> the increasing prevalence of family violence threatening the 
        essential core of Alaska Native cultures, and

  <bullet> the usual way of responding by increasing law enforcement 
        and child protection efforts ex post facto was aggravating, not 
        helping, the problem by further disrupting families when 
        parents were sent to prison and children to foster care--often 
        with non-Native families.

    The FWWI is addressing the statewide challenges of domestic 
violence, sexual violence, child maltreatment and trauma faced by 
Alaska Native people in communities throughout the state. It is founded 
on evidence-based and promising culturally appropriate practices and 
incorporates many aspects of cutting-edge, trauma-focused therapeutic 
practices. The approach used includes intensive education and training, 
leadership development, parent education, offender rehabilitation, and 
family and community support.
A Case for Reentry Support
    According to the Alaska Prisoner Reentry Task Force's The Five-year 
Prisoner Reentry Strategic Plan, 2011-2016, Alaska experienced 
considerable growth in its prison populations during the last decade. 
In 2009, for the first time in 38 years, 26 states successfully reduced 
their prison populations. Alaska was not among them. In marked 
contrast, Alaska has the 11th fastest prison population growth rate in 
the United States. From 1982-2007, Alaska experienced a 152 percent 
increase in its prison population. In 2009, 1 in 36 Alaskans were under 
the jurisdiction of the Alaska Department of Corrections, up from 1 in 
90 Alaskans in 1982.
    The disproportionate number of Alaska Native people incarcerated in 
Alaska's prisons is deeply disturbing. While Alaska Native people make 
up about 15 percent of the state's population, they constitute about 36 
percent of all prisoners in custody. Moreover, Alaska Native people 
comprise 50.8 percent of all prisoners in custody for sex offenses.
    In a 2007 Alaska Judicial Council Study, Criminal Recidivism in 
Alaska reported that 66 percent of released prisoners are back in 
custody within three years of release. Most of them, according to the 
study, return in the first six months. The fact that the recidivism 
rate is as high as it is clearly demonstrates that additional efforts 
and approaches must be made to cause a reduction in this rate.
    Given the disparate number of Alaska Native individuals in custody, 
it seems clear that a culturally appropriate model of reentry care 
using Alaska Native strengths and focusing on the family and community 
is needed. Data supports both the need for an increase in culturally 
appropriate interventions and the adoption of more effective reentry 
services. The Alaska Natives Commission 1992 Annual Report found, 
``There is a prevalent misunderstanding or misconception on the part of 
many non-Natives that only by administering ``western justice'' can 
there be justice, and this perspective is ultimately harmful to the 
pursuit of alternative dispute resolution strategies at the village 
level.'' One need only remember that Alaska Native people had systems 
in place for millennia before introduction of the western system.
    Challenges. Alaska has a unified prison system in which all 
facilities are funded by the Alaska Department of Corrections (ADOC). 
Its Anchorage facility, the Anchorage Correctional Complex (ACC), 
combines a jail and pre-trial facility for the Municipality of 
Anchorage (MOA)--a combined city--county government. Thus, there are 
three major constituencies with significant stakes in this project--the 
State of Alaska, MOA, and the Alaska Native community. Each has a 
unique perception and stake in this issue.
    The State of Alaska is concerned about the budget aspects because 
it bears the costs of all people in the corrections system including 
those incarcerated for any reason. It also pays for the court system 
and the cost of prosecuting felonies in Anchorage. Since most of the 
state's revenues come from oil, the precipitous plunge in oil prices 
has created one of the worst budget deficits in the nation and the 
legislature is desperate to save any money it can. Since the ADOC 
budget and number of people incarcerated has been increasing faster 
than major crime and the population, the legislature created a 
commissioner level task force to examine the issues and make 
recommendations. The fact that the number of people incarcerated was 
predicted to continue growing by 3%/year and, in spite of just opening 
a new $250 million correctional center, ADOC was at 101 percent of its 
capacity. Among the findings and recommendations of that group were

  <bullet> Finding--recidivism at 63.54 percent was highest among 
        youthful offenders, Alaska Natives, and misdemeanants

  <bullet> Finding--unsentenced individuals account for 40 percent of 
        ADOC's population at any time

  <bullet> Finding--felony convictions for non-violent crimes and 
        parole violations were among the top 4 factors driving prison 
        population growth

  <bullet> Recommendation--partner with Alaska Native entities

  <bullet> Recommendation--improve and expand collaborations among 
        stakeholders

    For its part, MOA's motivation is focused on public safety. A slew 
of headline making news about recent violence and homicides has created 
public perception that the city is not safe. This has become a major 
issue in the upcoming election and a public forum was held recently. As 
a result, every candidate pledged to address it. While perception does 
not equate to fact, the widespread perception and revelations that the 
Anchorage Police Department had a huge number of vacancies has made the 
topic one the public is demanding be addressed. In a tight budget as 
well, MOA is motivated because it pays for prosecution of all non-
felony crimes within the jurisdiction including DUI and domestic 
violence.
    Finally, SCF is motivated because it, as a major Native 
organization, wants to eliminate the disparate impact crime and 
incarceration is having on wellness in the Native community. It 
recognizes that the high proportion of Alaska Natives at ACC is 2.43 
times higher compared to the general population--a disparity even worse 
than the 1.89 times higher for all ADOC prisons. Given that 
incarceration appears to have no positive and lots of negative impacts 
the Native community, SCF is willing to assume a leadership role, as it 
did against family violence, to find better ways to address these 
issues.
A Model for Reentry
    Through FWWI, a more culturally resonant reentry support is being 
provided to the inmates of the Transformational Living Community (TLC) 
at both the Palmer Correctional Facility and the Hiland Mountain 
Correctional Facility. Although FWWI's target population is Alaska 
Native/American Indian inmates, all TLC program participants are 
encouraged to take part, regardless of ethnicity.
    This model was developed over decades of working through Alaska 
Native people. The primary focus of this approach is to provide a safe 
place for offenders, regardless of their crime, to heal from their own 
past trauma and enable them to explore strategies in order to change 
their thinking patterns and future behavior. Its aim is to reduce 
recidivism rates among participants in the reentry program, thus making 
our communities safer.
    The reentry component of FWWI addresses the mental, emotional and 
spiritual health needs of high-risk offenders in the process of reentry 
with the goal to provide them with tools for developing safe, healthy 
relationships and reducing recidivism. Reentry support services are 
designed for those who are exhibiting mental health problems, most 
associated with trauma, that include depression or other mood 
disorders, relationship problems, PTSD, anxiety disorders and 
substance-use disorders.
    Components of the model include:

  <bullet> An SCF employee working full time in the prison with TLC 
        inmates, providing monthly reports.

  <bullet> SCF employees attending TLC graduations and tracking TLC 
        graduates whereabouts and contact activity.

  <bullet> Pre-release meetings (and a flyer) to go over post-release 
        support options and to prepare for reentry orientation.

  <bullet> Same-day release orientation providing information and 
        resource opportunities including services and support 
        materials. During the orientation, TLC graduates meet with 
        FWWI's clinical team to discuss learning circle support 
        services (more than 65 weekly groups available) as part of 
        their relapse prevention plan. Graduates who attend the 
        orientation within two weeks post-release receive a generous 
        care package.

Key Concepts of the Reentry Model
    Key concepts of this Reentry Model focus on connecting Alaska 
Native people to their culture and using methods they can relate to 
through the following trainings:

    1) Providing a five-day Arrigah House (AH), pre-release, intensive 
rehabilitation experience to address the effects of trauma both in harm 
caused and harm received;

    2) Providing transitional services that will follow inmates pre-
release and post-release;

    3) Providing a five-day intensive Beauty for Ashes (BFA) training 
for reentry participants and family, as appropriate;

    4) Providing advanced leadership opportunities through a five-day 
intensive Advanced Leader Education and Training (ALET) for reentry 
participants who desire to continue their positive growth pattern 
through opportunities to give back to their community and become part 
of the solution; and

    5) Providing follow-up learning circles skill building groups to 
reentry participants and their families.

    Arrigah House (AH): This 40-hour training has been offered at the 
Palmer Correctional TLC program since 2004 and the Hiland Mountain's 
TLC program since 2012. This five-day intensive cultural model of care 
addresses cross generational trauma due to domestic violence, sexual 
abuse and child neglect. AH will offer training and healing 
opportunities to TLC inmates, ideally within six months prior to their 
release. Providing this training addresses environmental issues that 
may have been instrumental in the development of maladaptive behaviors. 
In essence, this will aim to improve the level of support and 
ultimately minimize the chance of relapse or a return to unhealthy 
coping techniques.
    Beauty for Ashes (BFA): This five-day, 50-hour intensive cultural 
model of care addresses cross generational trauma stemming from family 
violence, sexual abuse and child maltreatment. BFA will offer post-
release training for TLC graduates who have been identified as being 
at-risk for reoffending. The goal of this training is to reduce the 
rate of recurring incidents, to equip participants with the skills and 
tools they need to successfully address and reverse unhealthy coping, 
thinking and behavior, restore their families, reunite with their 
children, and to end the cycle of harm. This training opportunity will 
be open to family members of program participants who qualify through 
the screening process.
    Advanced Leader Education and Training (ALET): FWWI adheres to a 
service versus responsibility model in its reentry efforts. There is an 
expectation that those who have successfully completed the reentry 
process must be part of helping others who may have similar struggles 
or may be at-risk for causing harm. This effort is vital and encourages 
both accountability and sustainability. ALET is a five-day, 40-hour 
workshop for those who wish to become a group facilitator and 
presenter. This workshop provides the necessary tools and techniques to 
facilitate small groups in alignment with FWWI's established practices. 
It also provides an introduction to public speaking strategies designed 
to break the silence of violence and abuse through teaching topics and 
sharing personal stories.
Additional SCF resources and provisions
    Other support from SCF includes a full range of behavioral and 
primary care services to include Health Education classes. Key 
highlights of those services include:
    Learning circle follow-ups: Learning circles offer a variety of 
weekly educational and supportive small groups through the SCF 
Behavioral Services Division, Medical Services Health Education 
Department as well as FWWI that address a range of issues including 
anger, anxiety, healthy boundaries, marital dynamics in healthy 
relationships, parenting issues, conflict resolution, role playing, 
modeling, reentry support, veteran support, family wellness principles 
and other identified and relatable needs.
    The Four Directions outpatient program provides substance abuse and 
dual diagnosis assessments, substance abuse and mental health 
counseling, group counseling for men, women and children. The program 
addresses a range of topics including: parenting, domestic violence, 
anger, relationships, symptom management, anxiety and depression, 
relapse prevention, community recovery skills, life skills and health 
and wellness. Additional services offered at Four Directions include: 
early recovery skills, relapse prevention, family education, seeking 
safety, healthy relationships, social support/aftercare, urinalysis 
testing and 12-step traditional values.
    Quyana Clubhouse is a safe, welcoming place for Alaska Native 
adults with severe and persistent mental illness. The day program 
blends medical services with Alaska Native tradition and structure in a 
nurturing environment. The Quyana Clubhouse program offers case 
management, medication management, primary care services, tobacco 
cessation programs and more.
Outcome measures and program evaluation
    SCF conducts regular extensive evaluations of all inmates at the 
Palmer Correctional and Hiland Mountain Transitional Living Community 
(TLC) program who attend an Arrigah House while in the prison system as 
well as any former inmate who attends one of FWWI's trainings. TLC has 
a 28 percent recidivism rate. Without TLC inmates show 63.5 percent 
recidivism.
    To obtain quantitative data, a multi-dimensional evaluation survey 
is utilized which aligns with identified program goals and objectives. 
The instrument incorporates standardized scales and subscales which 
specifically evaluate identified domains of personal effect, protective 
factors and participant skills development. Statistically significant 
positive change has been evidenced among participants with reductions 
in substance abuse, difficulty controlling anger and the risk of 
purposeful harm or threat to harm. Men report a stronger degree of 
positive change in depression, substance abuse, anger control and self-
esteem, maintained over time. Of program participants, 74.98 percent 
report positive change in trauma symptomology. Gender comparisons 
indicate that positive change is significant among both men and women 
(p<0.01 and p=0.01, respectively).
Summary
    Alaska's statistics continue to reflect the extent to which 
additional culturally appropriate reentry services are needed. A 
supportive and cooperative network that offers rehabilitation and 
reentry services pre-, mid- and post-release is critical to the success 
of each program participant and ultimately the reduction of recidivism 
rates for those who participate. Southcentral Foundation's 80 programs 
are part of the solution.
    Contact Information
    Southcentral Foundation
    Katherine Gottlieb, MBA, DPS
    President/CEO
Cook Inlet Tribal Council (CITC)
    Cook Inlet Tribal Council (CITC) stands for people, partnership and 
potential. CITIC is a tribal nonprofit organization established by CIRI 
in 1983 designed for helping Alaska Native and American Indian people 
residing in the Cook Inlet Region of south-central Alaska reach their 
full potential. CITC believes that when we work together, we can help 
each other develop our strengths and talents, and become successful and 
self-sufficient individuals, families and communities.
    Since its inception in 1983, CITC has grown from a fledgling, 
grass-roots operation with only three employees, to one of the nation's 
preeminent culturally responsive social-service organizations serving 
more than 12,000 people annually, and employing nearly 250 passionate 
and caring individuals.
    CITC offers its Participants an array of support services includes 
education, employment and training services, workforce development, 
family preservation, and support for individuals recovering from 
addiction and substance abuse.
Chanlyut
    Administered by Cook Inlet Tribal Council, Chanlyut is a two-year 
residential rehabilitation program that offers a new beginning for men 
who want to become productive members of society and turn around self-
destructive patterns in their lives. Chanlyut provides a structured, 
yet self-governed path for participants to overcome addiction, 
homelessness, and/or reentering society after incarceration.
    Chanlyut residents pay no fees to enter the program, and receive 
food, clothing, education and all other services at no cost. Chanlyut 
operates several resident-run small businesses that serve as vocational 
training schools and provide participants with marketable skills upon 
graduation from the program. Chanlyut residents receive no pay for 
their work, and all revenues go directly back into Chanlyut's programs 
and services, with more than 43 percent of Chanlyut operating costs 
generated through Chanlyut enterprises.
    Chanlyut was founded in Anchorage in 2007, and is replication of 
the successful Delancey Street Foundation in San Francisco. Chanlyut is 
the only program of its kind in the State of Alaska, and provides an 
important alternative to more conventional services that have not been 
successful for a certain segment of the population.
    In a community with insufficient options for men returning from 
incarceration, substance abuse treatment, or the streets, Chanlyut 
fills a critical gap in job-skills development that lead to self-
sufficiency.
Chanlyut's Core Values
    Chanlyut, is a program of Cook Inlet Tribal Council, Inc. (CITC) , 
it is a two-year residential rehabilitation program where the residents 
live, work and learn together with the ultimate goal of returning to 
society as productive citizens. CITC offers its services to Chanlyut 
participants at no cost to them, their families or the state. All 
revenue generated through the program's business-training ventures is 
used to support the program and help keep its doors open to serve 
others in the future.
    Chanlyut is a replica of the Delancey Street Foundation, and has no 
professional staff of psychologists, psychiatrists or counselors, as 
therapy depends upon a rigorous peer-to-peer mentoring structure. 
Chanlyut has an ``each one, teach one'' philosophy similar to what 
happens in families, where the members are dependent upon one another 
as they grow to develop an identity and independence. In turn, this 
allows participants to ease into society on their own, while still 
maintaining a sense of continuity and connection with the family.
    Chanlyut's self-empowerment process of growth, change and 
interdependence teaches residents to rely on their own strengths, and 
help one another develop. The program stresses that: Individuals must 
take responsibility for their own actions to create viable options for 
their future. Chanlyut prepares its residents to live and work 
effectively as leaders, while having a positive influence in the 
community.
    Chanlyut focuses on traditional values, including:

        1. integrity, self-esteem, and a purpose and direction in life

        2. work ethic, the importance of self-reliance, and the dignity 
        of earning one's own

        3. helping others as a central means to improve self-esteem

    Participants gain vocational, educational and social skills through 
a consistent training and education, which begins as soon as a 
participant enters the program. Chanlyut's current vocational/training-
enterprises include a neighborhood diner, wholesale foods and 
janitorial services.
    Participants who faced previous challenges of gaining or keeping 
steady employment, are now individuals who have successfully launched 
and managed these business ventures that have become an important 
source of working revenue for the program.
    Chanlyut's educational training begins on a participant's first day 
as they become involved in a variety of daily workgroups that are 
designed to improve their work habits, reading skills, vocabulary, 
comprehension and public speaking abilities. During these sessions, 
each resident speaks for a few minutes on a specific subject being 
discussed by the group. This way, participants are exposed to the 
subject matter being discussed, as well as the experience of group 
speaking, and connecting an idea or theory to a personal experience.
    If not already a high school graduate, each resident is expected to 
have earned a GED before graduating from the program.
Chanlyut Program Phases
    Chanlyut's vocational training is accomplished in three phases:
    The first is in-house training, where residents are assigned duties 
within the residential facility, with the focus being learning basic 
skills, developing good work habits and establishing self-discipline. 
When residents have mastered this first level, they begin testing these 
skills in a variety of jobs with Chanlyut businesses.
    Depending on program progress, residents are eligible for Academy 
at 14 months, during which they may engage in vocational training 
outside of Chanlyut social enterprises. After a participant has 
achieved a desired level of competence, and has at least 20 months in 
the program, they are eligible to move on to the third vocational phase 
of getting a job with a commercial business in the community, where 
they must work successfully during the last four months prior to 
graduation. Learning how to manage one's own personal finances is a key 
component of this phase, as residents begin to earn their first pay 
since entering the program.
    Chanlyut residents are taught to work for everything they get, so 
they appreciate what they have even more. Every incentive-from moving 
from a crowded bunk-bed style dorm into a semi-private room; or earning 
a promotion in one's job; or accepting responsibility one's decisions--
must be earned through self-discipline, hard work and caring for others 
as well as one's self. Experience shows the more privileges residents 
earn, the more responsibilities they are willing to receive, and the 
harder they work.
    The final area of education in Chanlyut is social training where 
residents are taught to give something back through community service. 
Chanlyut residents volunteer for Boys & Girls Club, shoveling snow, 
setting up for events, caring for a city park they have adopted, 
helping with fundraisers and helping with neighborhood cleanup.
    Participants are encouraged to vote if they are so eligible.
    One of the central areas of education in program is interpersonal 
relationships, as the majority of residents have a very difficult time 
interacting with others. This learning happens constantly through 
communal living and formal program structure. Because residents live 
and work together, they must learn diplomacy skills, and how to accept 
authority and dispense it to others.
    Through a group dynamic called ``Groups and Games,'' emphasis is 
not on an individual's problems, but on his style of relating to 
others. During these group sessions, residents explore their feelings 
for one another, and their actions and behaviors toward one another in 
two-hour sessions twice a week. They learn how the impact of what they 
say can be brought into greater harmony with what they hope to 
communicate to others.
    These groups also allow residents the opportunity to vent their 
tensions productively and in a supportive environment. The games also 
help to instill a sense of humor about one's self, one's life, and 
one's problems.
    While Chanlyut residents make a minimum two-year commitment to the 
program, Chanlyut does encourage some residents to stay longer to serve 
as role models for other participants, thereby strengthening each 
resident's resolve to succeed.
    Residents are taught to demand of themselves that they make 
restitution to society. As a result, society may offer them another 
chance to be productive citizens in the community, enabling them to 
foster their own self-sufficiency, while living the values Chanlyut 
teaches and that hold our society together.
Alaska Native Justice Center (ANJC)
    ANJC's Mission is to promote justice through culturally based 
advocacy, prevention and intervention initiatives to restore dignity, 
respect and humanity to all Alaska Natives. ANJC work to integrate 
Alaskan Native culturally based advocacy programs and intervention 
initiatives necessary to assist in the resolution of legal 
circumstances such as divorce, child custody, domestic violence/sexual 
assault, minor in consuming violations and adult prisoner reentry.
    The Adult Reentry Program involves the use of services targeted at 
promoting the effective reintegration of offenders back to communities 
upon release. Reentry programming, which involves a comprehensive case 
management approach, is intended to assist offenders in acquiring 
positive life skills necessary to succeed in the community. The Alaska 
Native Justice Center offers both pre- and post-release services for 
participants enrolled in six-month program.
    Pre-Release Services Include: Participant Orientation, 
Individualized Case Management, Individualized Transition Planning, 
Employment and Workforce Assistance, Housing Assistance, and 
Transportation Vouchers.
    The Adult Re-entry Program currently works in the Palmer 
Correctional Center & Hiland Mountain Correctional Center providing 
pre-release services.
    Post-Release Services Include: Participant Orientation, 
Individualized Case Management, Moral Recognition Therapyr, 
Transitional Mentor & Peer-to-Peer Support Group(s), Resources for 
alcohol and other drug rehabilitation, Vocational Training and Work 
Program Assistance, Housing Assistance, Transportation & Bus Vouchers, 
and Community Service Participation.
    The Adult Reentry Program assists participants in developing 
greater self-esteem, responsible attitudes, positive new habits and 
conditioning to successfully transition into the community and reduce 
the rate of re-offending. This program is intended for individuals who 
are 180 days pre- and post-release in the Municipality of Anchorage 
service area.
    The ANJC's Adult Reentry Program funded by the U.S. Department of 
Justice, Second Chance Act (SCA) grant works in collaboration with the 
State of Alaska Department of Corrections (SOA DOC) to guide 
participants in proactively addressing the barriers they may face 
during the transition from prison back into the community.
Partners for Progress (PFP)
    PFP operates a Walk In Reentry Center in downtown Anchorage. PFP 
sees 40-60 people per day and provides Employment and Job Readiness 
assistance, housing and other support services PFP also refers to ANJC 
and other providers for more specialized treatment and support 
services. PFP sees a high number of Alaska Natives who are stuck in 
Anchorage because they cannot go home due to probation/parole treatment 
requirements. Many of these Alaska Natives are from rural Alaska and 
they have never lived in an urban setting or held an urban job. They 
are used to fishing and subsisting, but due to legal requirements, they 
are now forced to 'Reenter', in Anchorage. PFP has responded to some of 
these needs by developing a Native Men's Group that meets weekly at the 
Reentry Center. A successful Native Elder leads this group. His job is 
to help other Native men get around Anchorage, apply for social 
security and other assistance and use our computer lab.
    PFP wants to see Telemedicine used to provide Treatment for those 
on Parole and Probation so people can go home to their villages. The 
infrastructure is in place for Telemedicine/telehealth, why not use it 
for Mental Health and treatment services such as support meetings and 
sex offender treatment? Let's utilize currently existing services and 
structures to meet the complementary needs of the justice system.
    Partners For Progress continues to collaborate with many other 
organizations in Anchorage and around the state to improve reentry 
services, reduce recidivism and increase restorative justice programs 
for our most disadvantaged.
    For more information about Partners For Progress Adult Reentry 
Program, please contact:

        Doreen Schenkenberger
        Executive Director
        Partners For Progress
Conclusion
    Investment and Justice reinvestment in community based justice will 
result in a more successful outcome for Alaska Natives and their 
communities as incarcerated Alaska Natives reenter their communities, 
be they urban and commercial, or rural and traditional communities. The 
use of partnership with Alaska Native Tribes and Tribal non-profit 
associations can achieve self-determination and success in meeting 
Alaska Native Justice need. Justice needs are part of a continuum that 
also includes health/wellness and social services.
    After a career of 21 years of practicing law in Kodiak, Alaska, 
both prosecuting and defending every manner of human difficulty, I 
testify that each person the justice system brought to court had more 
than just a ``legal'' need. A team of services was always necessary to 
address any given situation and the problem presented to the Alaska 
Justice system was never addressed solely by incarceration.
    Alaska Natives have used Federal statutory authority to increase 
their self-determination, improve the provision of health and wellness 
services and begun to address the social needs of our people. Reentry 
and recidivism programs, Justice programs and Tribal courts require 
sustainable funding and they work best when compacted or contracted for 
by government to allow self determination by the Alaska Native People.
    Community based justice in Alaska can succeed.

    Senator Murkowski. Thank you. Jeff, welcome.

   STATEMENT OF JEFF JESSEE, CEO, ALASKA MENTAL HEALTH TRUST 
                           AUTHORITY

    Mr. Jessee. Well, thank you, Senator, and thank you for 
this opportunity. While I'm not sure it was necessary to 
emphasize the decades that I've been working in this area----
    Senator Murkowski. I'm with you.
    Mr. Jessee.--I happen to have had this for a while. I came 
to Alaska in 1980 as a Vista volunteer out of law school 
working for legal services and what now is Disability Law 
Center for 15 years and then went on to work at the Mental 
Health Trust for the last 20. In addition to being a member of 
the Criminal Justice Commission, which was set up under the 
leadership of Senator Coghill, I'm also the co-chair of the 
Recidivism Reduction Plan Workgroup. Now my co-chair in that 
endeavor is Commissioner Ron Taylor from the State Department 
of Corrections and I want to really briefly talk about 
Commissioner Taylor.
    You can't underestimate how important it is to have, in 
this effort, the support of a Commissioner of the Department of 
Corrections with vision about how to solve these problems, not 
only a vision about what needs to be done within the 
Department, but a vision about what other partners in the 
community have to do for his agency to be successful at 
returning people into the community as productive citizens.
    This Reduction Plan Workgroup came as a result of some 
legislative intent language two years ago. Now this legislative 
intent language was really important because historically, when 
people talk about recidivism, they talk about the usual 
suspects, the Department of Public Safety, the Department of 
Corrections, the Court System, the Department of Law and the 
conversation started to get developed where it's like you know 
what, those are the guys that catch them and put them in prison 
and keep them in there.
    You know who are the agencies that really have a huge 
impact on keeping them out when they leave, it's Alaska Housing 
Finance Corporation, it's the Department of Labor and Workforce 
Development, it's the Department of Health and Social Services, 
it's our tribal partners because what we know is to keep people 
productive in the community, they need housing, employment and 
support for recovery.
    I know you're very familiar with trust beneficiaries, they 
range from people with developmental disabilities to 
Alzheimer's disease, related dementia, traumatic brain injury, 
mental health and substance abuse. Sixty percent of Department 
of Corrections inmates are trust beneficiaries. They serve 
longer sentences and they recidivate at a higher rate.
    `` So these are critical issues to the mental health trust, 
which is why we've worked so hard with Senator Coghill, with 
Commissioner Taylor and others to address these issues.
    I want to talk about a couple things. You know, yeah, we're 
doing great things, but I tend to see these hearings as well, 
what can you do for us and so there's a couple things I think 
that you might be able to do for us and some of them aren't 
immediately intuitively obvious. Well, why would the Committee 
on Indian Affairs in dealing with strengthening families, 
Native families want to deal with some of these things. Well, 
one, which is absolutely critical is housing. If we don't have 
housing for people when they come out of Corrections, supported 
housing for those people with behavioral health needs, sober 
housing for those people that are trying to maintain sobriety, 
then their chances of being successful in the community are 
very, very low. So when you look at your congressional agenda 
and you see things like the NAHASDA funding for Native Housing 
Authorities, the Home Program, the Housing Trust, those may not 
immediately jump out, except maybe NAHASDA, as things that 
would relate directly to this issue, but they do. And even 
small amounts of money in the Housing Trust and Alaska being a 
minimum allotment State, that money can be put to very 
productive use.
    Housing first, which I think you're a little familiar with, 
taking people with chronic substance abuse conditions and 
saying, you know what, we're no long going to wait until you 
get sober to offer you housing, that wasn't working. So let's 
house you first and then see if we can deal with some of these 
other issues.
    We've opened successful housing first projects here in 
Anchorage, Tanana Chiefs Conference has a very successful 
housing first project in Fairbanks and Juneau is about to 
follow along. So housing is absolutely incredible and 
incredibly important.
    And support for recovery. Particularly in rural Alaska, 
there's a lot of really good things happening. I know you're 
familiar with the Denali Commission and their efforts to put 
clinics into many villages across the State. While the Trust 
worked with the Denali Commission, and you know, those first 
few years, you couldn't even really talk about behavioral 
health being part of those clinics, but we kept working with 
them and eventually now behavioral health space is a part of 
each of those clinic designs and the Mental Health Trust 
continues to provide the local cost share match for behavioral 
health space, so it's a no cost addition in those rural 
community clinics, which is huge.
    But space isn't very valuable if you don't have somebody in 
those spaces to do the work and that's where the Behavioral 
Health Aide Program is absolutely critical to getting help in 
these communities for people not only coming out of 
Corrections, but people are struggling in the community with 
sobriety, with mental health issues and heading off many of 
these issues before they end up getting caught up in the 
criminal justice system.
    And here's a little bit of a rabbit trail, so okay, so we 
want to provide these services in villages. We have some 
behavioral health aides, but they need support, they need 
clinical support. And so what we did is, a few years ago, the 
State did a broadband plan and I looked at the State's plan and 
it had one or two tribal people on it and surprise, surprise, 
the State plan for broadband in rural Alaska was to create a 
new broadband system at a cost of millions of dollars to enable 
us to use broadband to reach out and deliver services in rural 
Alaska. And I sat there and I went, I thought we did this, I 
thought we had the AFHCAN project and we had broadband in 
clinics and I thought we put broadband in the schools and I 
thought we put broadband in the libraries. Why in the heck 
would we create another broadband system?
    So I started talking to Stuart Ferguson at the ANTHC and 
talked to the CIOs of the health corporations and well guess 
what? The Federal government, which subsidizes many of those 
systems puts a lot of restrictions on what you can use those 
systems for. Now that doesn't mean we can't be creative. An 
Anchorage agency, Alaska Child and Family wanted to do some 
support for children and family in rural Alaska. They went out, 
developed relationships in Upper and Lower Kalskag. Well, how 
are they going to get access to broadband? Well, what they did 
is they worked with the schools and they put these services in 
the child's individualized educational program, and once it was 
in the IEP, they could get access to broadband in the school.
    I tell you, if you want to help us, see if we can't get 
some flexibility, especially in frontier and rural areas, 
around access to these broadband capacities. We could do a lot 
more to support families and communities if we could just use 
the tools that we have. And maybe one of the silver linings 
about the fiscal problems in the State of Alaska is we can't 
afford to build another stupid system that we don't need, so 
we're going to have to find a better way to do this and I think 
you could help us to accomplish that as well.
    Looking at tribal courts, I'll tell you how we look at 
tribal courts. We have a lot of experience with therapeutic 
courts and it's been a long slog. Mental health courts, 
wellness courts and when we first started with those courts, it 
was interesting to hear the court systems as a systems response 
to it. For a while, they call them the boutique courts and it 
was not a term of endearment. They didn't see how spending more 
time in hearings, spending more time with these repeat low 
level offenders that were there because of mental health and 
substance abuse problems could possibly be worth their while 
when they need more judges here and more judges there. But you 
know, the more results we got, the more they saw how less 
frequently people were coming back into the system, and yes, 
they might have to spend four, five more hearings for this 
particular case, but gee, half the cases weren't coming back.
    Now the court system is a big supporter of therapeutic 
courts and I'll tell you one of the similarities I see with 
tribal courts and I'll just give you an example. I went to a 
mental health court hearing and one of the aspects of it is the 
judge talks right to the person, not through the lawyers. And 
the judge is talking to this woman and talking to her about her 
treatment and staying on her meds and she's got a job and she's 
doing great in her apartment and they get all done and this 
woman's all excited about it. And the judge says, you know, 
you've been coming here every month and you're doing so well, I 
don't think you need to come back for three months and this 
woman's face fell. She was crestfallen and she said well, Your 
Honor, are you sure I can't come back again next month? That's 
how you turn the justice system around, from being an adversary 
of the people to a helper of the people, and to me, that's what 
the tribal courts are, they're taking that approach of how do 
we help, how do we be partners with these people and help them 
get healthy and back into the community.
    And so I understand why there's resistance to the tribal 
courts. We get into all these jurisdictional issues and tribal 
sovereignty and all of that sort of rhetoric. But to me, what 
it comes down to is needing people where they are and rallying 
their communities around them. And so I think, with some base 
funding and framing for us at least, the tribal courts as 
therapeutic courts, that they can also expand and take an 
extremely valuable role in rural Alaska.
    And again, I'm appreciative that Greg mentioned the 
medical/legal partnership, that's one of the things the trust 
is doing now. We're actually going to fund some of those social 
workers and so we're going to collect data and be able to 
establish that by meeting the holistic needs of many of these 
defendants, that we can keep them out of prison and productive 
members in the community. Thank you.

        The supplementary information titled 2015 Recidivism 
        Reduction Plan: Cost-Effective Solutions to Slow Prison 
        Population Growth and Reduce Recidivism has been 
        retained in the Committee files and can be found at 
        http://www.ajc.state.ak.us/acjc/recidivism/HB266-
        2015.pdf

    Senator Murkowski. Thank you, Jeff, greatly appreciate it. 
Denise, welcome.

   STATEMENT OF DENISE MORRIS, PRESIDENT/CEO, ALASKA NATIVE 
                         JUSTICE CENTER

    Ms. Morris. Thank you. I've got some written statements 
here that I'm going to try to stay to a little bit so I don't 
forget everything that I want to say. So I'm Denise Morris and 
I'm Aleut and my mom's family hails from the Pribilof Islands 
in St. George and St. Paul. We have a tribal court at home and 
my father's family hails from Nebraska.
    I appreciate the opportunity to represent, on behalf of my 
fellow Alaska Native people, by sharing my thoughts before the 
Committee, staff and the public on the important issues of 
strengthening Alaska Native families. I hope to share some of 
what I know and have learned concerning recidivism, reentry and 
tribal courts and also really supporting what truly matters 
most, which is our families, our relationships, our culture and 
meeting people where they are and truly listening respectfully 
to their story.
    As I indicated, I currently have the privilege of serving 
as the President and CEO of the Alaska Native Justice Center. 
I've been at the Alaska Native Justice Center approximately now 
17 years. I can't believe when we're sitting here aging 
ourselves, it's gone 17 years, and not only that, me and Greg 
went to Mountain View Elementary together, we were in the 
fourth grade. So as I'm listening to people talk, I'm going we 
have a lot of history together.
    So at any rate, as it relates to the Alaska Native Justice 
Center, the Alaska Native Justice Center was created or 
established in 1993 to address the unmet needs of the Alaska 
Native community and Alaska's criminal and civil justice 
system. And in 1993 when the Alaska Native Justice Center was 
formed, Alaska Natives represented between 42 and 47 percent of 
the State's incarcerated population, so that was one of the 
founding reasons that the Alaska Native Justice Center was 
created. When those statistics were actually reported, I mean, 
everybody was just astounded that the number of Alaska Natives 
that were incarcerated, it was probably one in 25, at that 
time, that were incarcerated within the Department of 
Corrections.
    And the Alaska Native Justice Center truly wanted to be a 
solution. What can we do to address this particular issue? And 
that basically is where our mission came from is that the 
Alaska Native Justice Center promotes justice through 
culturally based advocacy prevention and intervention 
initiatives to restore dignity, respect and humanity to all 
Alaska Natives.
    And as I indicated, the statistics then, and unfortunately 
now, show a disproportionate representation of Alaska Native 
men in our prison population, and unfortunately, Alaska Native 
women as victims of violent crime, most particularly domestic 
violence and sexual assault and Alaska Native children in out 
of home placement with the State of Alaska, Department of 
Health and Social Services and that number changes. But right 
now, I would say between 40 and 45 percent of the children that 
are in the custody of the State of Alaska are Alaska Native 
children.
    Since 2009, the Alaska Native Justice Center has worked 
closely with the Department of Corrections to improve the 
quality, access and transitional support services to 
individuals pre and post lease--post release. And I do want to 
echo what was said about Commissioner Ron Taylor. He has been 
very, very supportive, I think that he has the ability and 
really wants to change these statistics and is working really 
hard. And I do want to add that the Division of Juvenile 
Justice has reduced the number of Alaska Natives that are 
detained, so there's another model to look at.
    However, as I indicated, in 2009, ANJC was actually awarded 
a grant from the U.S. Department of Justice, Bureau of Justice 
Assistance through the Second Chance Act. We were an advocate 
for the passage of the Second Chance Act, which was 
specifically funds to support programs for individuals that 
were transitioning from incarceration and I think that's the 
first federal legislation that actually had funding associated 
with it.
    In 2010, ANJC's Board of Directors developed a five-year 
reentry strategic plan, and as a key component of that, we 
established the first Alaska Native Advisory Committee, which 
was dedicated to implementing successful reentry services.
    Statistically, since 2010 and 2014, ANJC has provided 
reentry services to some 2,500 people and there's a lot more 
people seeking support, we just can't help everybody and 
there's other partners now that are also doing this work. In 
2014 alone, we had 1,175 individuals that we helped or assisted 
who were transitioning from incarceration, so ANJC's program 
participant recidivism rate averaged 19 percent. That's low for 
recidivism rate in the State of Alaska, 19 percent.
    I believe now, as compared to the State of Alaska, 
Department of Corrections, statewide recidivism rate, which is 
63 percent, so our programs are culturally based programs, we 
work one-on-one with the individuals, we develop individual 
intensive case management plans pre-release, when the 
individual is post release, we work with them and actually 
implementing the case management plan that was designed with 
them to meet their specific needs.
    We have the support of the Department of Corrections. 
Everybody that is participating in our reentry program is 
assigned to one probation officer. So if we have a particular 
issue that arises, we're able to meet with and talk with that 
particular probation officer. Individuals that are in our 
programs meet weekly and more often if they need to. And when 
we're developing their case management plan, we're looking at 
the gamut of everything that we're talking about, housing, you 
know, if there's a condition of probation that they need to be 
enrolled in an alcohol substance abuse treatment program, how 
are we going to do that; if they're currently on meds as a 
result of mental health issue, how are we going to continue 
that, employment is a biggie.
    And I just want to also barrier crimes, I know that the 
Commission is looking at barrier crimes, but I can't tell you 
the number of doors that are closed as a result of the 
restriction of barrier crimes. Housing, employment. Another key 
component that we do at the Alaska Native Justice Center in 
partnership with a lot of people, we don't do this alone, is 
educating the public of the value of giving people a second 
chance.
    Senator Murkowski. Yes.
    Ms. Morris. These individuals have a lot of skills that 
they bring to the table, we educate employers about the 
opportunities of hiring these individuals, we educate landlord/
tenants about renting to individuals to really try to dispel 
the myth associated with being incarcerated.
    Some of the other issues that I want to talk about as well 
is tribal courts and I can say that the Alaska Native Justice 
Center has been an advocate of tribal courts for a long time. 
And as Natasha had indicated, there's 229 tribes in Alaska and 
a third of them actually have tribal courts, but there's also 
elders panels, there's community panels, there's diversion 
programs, there's a lot of other ways that we can utilize our 
resources to address alternatives to incarceration.
    And I also want to talk a little bit about prevention. We 
know if an individual graduates from high school, the 
likelihood of that individual being incarcerated is reduced by 
50 percent. And we know if children have their parents in the 
home, and you know, when we're talking about the number of 
individuals that are incarcerated in the Alaska Native 
community, we have children of Alaska Native heritage that are 
being raised by their grandparents or their aunties or their 
uncles because sometimes both of their parents are 
incarcerated. So I mean, the factor that this has on our 
families is tremendous, so I really think that there's a lot of 
things that we can do and I have to say that right now, that 
even though the numbers of the individuals that are 
incarcerated is devastating, I'm encouraged now that because I 
think that people are coming together with open minds to truly 
look at what it is that we can do to reduce these numbers. And 
we don't want to be number one in the nation for the number of 
people that we have incarcerated, we do not want to be number 
one in the nation for domestic violence and sexual assault and 
I know there was a report that was done by the Alaska Judicial 
Council and they were talking about recidivism. Other than 
being Alaska Native, the only other mitigating factor is being 
indigent, so when we're thinking about factors, about how 
people end up in the justice system, I think that we need to 
look at all of the resources, utilize all of the tools that are 
available to us to really address this issue. And I think 
addressing it at the local level by utilizing tribal courts, 
utilizing elders panels, whatever tools are available to us, I 
think really will go a long ways.
    And we do know through the Indian Self Determination Act 
that culturally relevant programs based on the cultural needs 
of the individuals utilizing those programs make a significant 
difference. We've done it with the healthcare model, so there's 
a tribal set aside so that culturally relevant programs can be 
developed. We've done it with NAHASDA, so there's all kinds of 
opportunities and there's proven evidence that demonstrates 
that culturally relevant programs do make a difference.
    So in closing, I would just like to say that I really 
appreciate you being here, appreciate your support over the 
years. Thank you.
    [The prepared statement of Mr. Adkins follows:]

Prepared Statement of Chet Adkins, Participant of Alaska Native Justice 
  Center's Reentry Program, Southcentral Foundation's Men's Wellness 
  Program, and the Southcentral Foundation's Family Wellness Warriors 
                               Initiative
    I am 55 year old, Yupik, Aleut, and white. I spent my first five 
years in the village of Oscarville with my maternal grandparents. My 
first language was Yupik and I identify myself as Yupik because that is 
the culture I know and love. At five I moved to Fairbanks with my 
parents to go to school.
    The education that stuck was the one I got at home; how to be a 
criminal. My father was a steel contractor and when I was not in school 
I was on job sites with dad. My favorite times were lunch and coffee 
breaks, listening to the stories and believing them; which gave me a 
very skewed and unrealistic view of relationships and a man's role in 
life. I learned that a man's only duty was to provide, not to nurture 
and that woman should subservient and take care of her children and her 
husband's home. I also learned that a man had to fight when challenged 
or when his word was questioned and that he had the right to do as he 
pleased when away from his family.
    From age 14 to 17 I worked on the pipeline making an iron-worker's 
apprentice wage. I worked most of the camps from Sheep Creek to 
Franklin Buff. This period validated everything I learned during lunch 
and coffee breaks; I received an up close education on how to get 
things done. Where the crew went after work, is where I went. This 
exposed me to the application of many of the values I had assimilated 
on the job. The most damaging subconscious value I developed was how I 
categorized women. There were family members and friends who were to be 
protected under any circumstance. There were the nice girls who you 
could date and marry, and there was the misguided belief that women 
could be taken advantage of because of the situations they found 
themselves in.
    By the time I was 10, I had split myself in 3 completely different 
people with different values and behaviors to match my different 
environments. When I visited the village I became the Eskimo boy who 
reflected the traditional, cultural, and community values I was taught 
as a child. In school I was a student and an athlete. When I was at 
work, I was a good iron worker and a criminal. These persons coexisted 
and allowed me to function until I was 17. At 17 I quit school and my 
family moved from Fairbanks back to Bethel. I no longer needed the 
student in me, and I no longer had the geographic space that had 
protected the Native me from the criminal me. Within a short period my 
criminal values won out I became a bootlegger, making me toxic to the 
culture I claim to love.
    By the time I was 20, everything I did, from commercial fishing to 
driving cab to operating a village store, had some element of criminal 
activity. When I was 25 my father committed suicide and left an 
insolvent estate bleeding money. My solution was to graduate from 
selling whisky to selling cocaine. I made my first trip to Florida in 
early March of 1986. Things went as planned for about 6 months, then 
one day I woke-up, and if I had cocaine, I used, and I always had it. 
By December, when I got down to a pound of uncut, I quit selling so I 
wouldn't run out. On March 23rd 1987, I committed the murder of a woman 
behind cocaine.
    When I got to prison, I became a bigger criminal than I ever was on 
the street. I created drama and chaos to give my life purpose. It took 
me 12 to 14 years of my sentence to begin to take responsibility for 
the things I had done in my life. It took me another 8 years or so to 
completely accept responsibility for what I had done and realize that 
my actions from 30 years ago and longer continue to have consequences 
to others. I believe the most significant part of this process was a 
spiritual awaking; strengthened and facilitated by the Kairos Prison 
Ministry and the Transitional Living Community Program in Arizona. My 
spiritual awakening gave me the tools to accept responsibility for what 
I had done without condemning myself.
    Early in my sentence, with the support of Orutsaramiut Native 
Council in Bethel, I began to educate myself. I began primarily because 
it mitigated the consequences of my behavior in prison. Within a short 
time I began to build a sense of accomplishment from my studies. I now 
have over 200 quarter credits and I earned an AA in liberal arts from 
Ohio University. At the same time I shifted my focus from the yard to 
ivory carving and jewelry making in the hobby shop. The hobby shop 
provided me with a way to help support my children and through making 
wood toys, a means to begin making amends to the community; the hobby 
shop also gave me a cultural connection I hadn't experienced since 
childhood.
    The last part of my incarceration was spent in Colorado in the 
Residential Substance Abuse Treatment program. I completed the program 
in September of 2010 and then worked as an office assistant and group 
facilitator until September of 2013. I had the privilege of working for 
a lady, who through both word and deed showed me that her primary 
interest and goal was to help people. She taught me that goal of 
treatment was not to stop using; it was to understand how we became who 
we are so that we can become who we are meant to be. Losing the desire 
to use or act out was an ancillary benefit of that growth process. It 
was at this point that I was able to let go of the last of my criminal 
values and ties. As stupid as it may seem, I had been subconsciously 
hanging on to them as a backup plan. At this point I was comfortable 
putting the program before my old values and earnestly began to 
confront behaviors and challenge beliefs within the Residential 
Substance Abuse Treatment program. As a result I developed a reputation 
of rat or snitch and I was ostracized by my old cohorts, both of which 
I am OK with if not proud of.
    In the last 3 years of my incarceration I experienced pain, 
cramping, weakness, and loss of function in my legs. It wasn't until 
just before I was released on parole that the Department of Correction 
acknowledged that my spinal nerve bundle was compressed to 20 percent 
of its normal area, that I had probable motor nerve damage, possible 
sensory nerve damage, and impaired function in my legs. At first I was 
told that I wouldn't be released until I had back surgery because the 
half-way house wouldn't accept me. I was later told that medical had 
cleared me to go to the halfway house. I was transferred to the halfway 
house on October 10, 2014.
    It was clear to me from the beginning that I had been set up to 
fail. I couldn't get a job because of the impaired function of my legs 
and the liability that the condition created; the halfway house refused 
to give me permission to get the surgery because of the medication 
given with surgery and wound care required after surgery, my parole 
officer refused to press the issue stating he had no control over the 
halfway house, and the Department of Corrections refused to give me a 
path to resolution. At 3 months into my stay at the halfway house after 
I had written a letter to the parole board, I was given a perceived 
path to getting my surgery. However, alternate housing was not approved 
until I had completed all but 10 days of my 6 month stay at the halfway 
house. Up to that point, I had been mentally preparing myself to have 
surgery at the Alaska Native Medical Center and then turning myself in 
to recover in prison, hoping that my parole would be reinstated when I 
had recuperated from surgery.
    While in the halfway house I found myself caught between a rock and 
a hard place. One consisting of the halfway house, my parole officer, 
Job Service, and even Cook Inlet Tribal Council, all of whom told me 
what they couldn't do for me or what I couldn't do for myself until I 
had my back surgery, while not giving me the option of having the 
surgery; and my parole requirement to have employment.
    I owe the success I have had and my continued freedom to the Alaska 
Native Justice Center, the Southcentral Foundation's Men's Wellness 
Program, and the Southcentral Foundation's Family Wellness Warriors 
Initiative. By networking at the Alaska Native Justice Center (ANJC) 
weekly support meetings I learned about the Men's Wellness Program 
Internships. The Men's Wellness Programs was willing to meet me where I 
was and help me from there, rather than expect me to change or improve 
things outside of my control before helping me. Men's Wellness gave me 
a 6 month paid internship and placed me with the Family Wellness 
Warriors Initiative. Family Wellness Warriors Initiative gave me a job 
with both meaning and purpose. Together these 3 organizations gave the 
one thing I had been asking for--a chance to prove myself. Three and a 
half months into my 6 month internship I was hired as a permanent full 
time employee at Family Wellness Warriors Initiative.
    I firmly believe that if these organizations and the people in them 
hadn't seen me rather than a convict, if they hadn't given me the 
acceptance and support that they have, I would have been just another 
failure who went back to prison; not because I did anything wrong, but 
because I would have been unable to get and keep a job without them, 
which was a requirement of my parole. I know that I owe my current and 
future success to the women and men in ANJC, the Southcentral 
Foundation's Men's Wellness, and the Southcentral Foundation's Family 
Wellness Warriors Initiative (FWWI).
    While I know that I don't have all the answers, based on having 
spent over 29 years incarcerated, I do have some suggestions. First, 
reentry begins in prison. In my experience and observation, most prison 
programs are for show, they tend to lack the depth, value, and duration 
to develop and maintain real jobs skills, and this must change. As part 
of that change, those with experience and skill, who are incarcerated, 
must be better utilized to teach and mentor the young and unskilled.
    The value of hobby craft programs, which are being eliminated by 
the Department of Corrections, cannot be over stated. Hobby craft is a 
means to create cultural connectivity for Native prisoners. Hobby craft 
is the only activity beside visitation that fosters family ties, family 
interaction, and positive communication between prisoners and their 
families. Hobby crafters must interact with vendors to purchase 
supplies and sell their crafts. Crafters must learn how to prioritize 
their needs and activities as well as saving and budgeting to buy their 
tools and supplies. Hobby craft provides a unique opportunity for 
prisoners to give back to society through community service. Hobby 
craft teaches marketable skills, a work ethic and responsibility. Hobby 
craft also stimulates change in values. With a 2 to 3 year waiting list 
to get into the shops and a significant investment in tools and 
materials, participants are rarely involved in physical conflicts or 
willing to risk a dirty urinalysis, both of which are grounds for 
immediate expulsion from the shops. In short, hobby craft is the most 
complete rehabilitative program the Department of Corrections provides, 
but fails to recognize it as such.
    In my experience faith based programs offer hope through the 
promise of forgiveness and salvation; which can be achieved only 
through repentance and right living. Faith has given me and many others 
the only real hope for the future we have ever known. My observations, 
even before my own spiritual awakening, showed me that few who did not 
find and build some sort of spiritual foundation, rarely had lasting 
success. Therefore, all spiritual journeys, even those different than 
our own, must be supported.
    The largest problem that I see confronting all released felons, is 
that Alaska is number 1 for state-created legislative and regulatory 
barriers to successful reentry. There are no less than 533 state 
statutes and regulations obstructing reentry in one way or another. I 
would make a great substance abuse counselor; but I am barred by state 
statue from ever being one. How does that serve the greater good? If 
you want to reduce recidivism, you have to give us the same opportunity 
to prove ourselves that ANJC, Men's Wellness, and FWWI gave me.

    Senator Murkowski. Thank you, Denise. Thank you to each of 
you for, I think, very insightful comments and we've spent a 
lot more time hearing from you than what we typically might in 
a regular hearing. I felt that what you were providing us was 
way too important to cut it off at five minutes, so we won't 
have as much time for the back and forth, but I think what you 
have put before the Committee through this public record has 
been exceptionally important and I thank you for that.
    I'm struck that we have a conflict, an approach almost 
because of our geography, because of where our people are 
situated around an enormous state that is challenged by 
distance and cost.
    And as we talk about how we deal with the issues of 
recidivism, of reentry, of rehabilitation, what I've heard from 
all of you, whether it's the state approach or tribal or here 
in Anchorage, it's this community based justice, making sure 
that you've got programs that are culturally relevant, making 
sure that when an individual comes out of that system, that 
there's a better alternative than just going back to what got 
you into this in the first place.
    And as I review the very strong benefits that we see from 
the tribal courts structure and out in our villages and the 
different approaches to sentencing, to healing, to 
rehabilitation, the description that you had, Natasha, about 
the circles and the fact that you have an entire community 
literally that is weighing in, in discussion, and in a way that 
not only helps the victim, helps the perpetrator. But also the 
whole community and I'm struck at how that can work, but I also 
recognize that when you're coming from Mountain View, when 
you're coming from Anchorage, which is our state's largest 
population base for our Native peoples, we don't necessarily 
think about it that way, but we have more Alaska Natives here, 
how can you take that true community based justice system that 
would be effective in Stevens Village or effective even out in 
Kodiak, which is a bigger city and might work in Old Harbor, 
but a little bit more difficult to translate to Kodiak, but you 
can make it work because there's a closeness and people know 
one another.
    But you come to Anchorage and we're a big city here, this 
is--there's a level of anonymity, you can get lost in Mountain 
View, you can get lost in the system here. How can we do a 
better job of this community based justice to provide for the 
needs of so many here who are falling through those cracks. And 
Denis, you mentioned some of the programs, but it's almost like 
it's case by case. Is it translatable what we're doing with our 
smaller villages and through our tribal courts, is it 
translatable into the urban centers, and if so, how do we do 
it? Go ahead, Greg.
    Mr. Razo. Sure. I think it's absolutely translatable into 
an urban setting and first, I'll talk about the courts that 
Jeff talked about, the wellness courts and the drug courts and 
supporting that system that has the time and takes the time to 
deal with individual needs because it is individual needs, but 
we shouldn't mistake the fact that there's more than one tribe 
here in Anchorage, Alaska. There are many tribes here in 
Anchorage, Alaska.
    Senator Murkowski. Well, we have all of them right here, 
so----
    Mr. Razo. All of them, yes.
    Senator Murkowski. Yes.
    Mr. Razo. So I think you recognize that you don't have to 
be in a village to form a partnership and we know that there's 
community coalitions like AFACT, and you know, faith based 
coalitions, there's folks that are hungry for partnership and 
want to become part of the system that they find themselves 
living in. Whether they're from a Polynesian background or a 
Laotian background, you begin to reach out, include those sorts 
of cultures into a system and then you're able to form justice 
systems that are relevant to those people because they must 
find themselves in even a more foreign situation than an Alaska 
Native does here in Anchorage.
    Senator Murkowski. Senator Coghill?
    Mr. Coghill. Sure. Thank you, Senator, and I think that's a 
good question for the whole population. For example, cultural 
issues, we have so much military in Alaska, that's a different 
culture than many things we have to deal with. We have the 
Polynesian, in Barrow, we have a population of Filipinos, it's 
significant and it does need to be culturally relevant.
    One of the things that we're encouraging the State to do is 
to look at our pretrial population and look at diversion 
programs, things that we can do that are relevant to that 
situation. So that would be able to get them into treatment 
programs if they will agree to it. It's going to have to be 
permissive because when you're in pretrial and you don't want 
to assume guilt necessarily, but there are things that we're 
looking at that can help that circumstance, especially for 
people who have been incarcerated before, things that we might 
be able to get them into, maybe ankle monitoring with the 
requirement of a program, things like that.
    I think it's going to be important. It can't be understated 
that prevention issue if a big deal. I think it's not just 
education though, you have to have everything from working 
partnerships, I think some of the things that we do in interns 
is significant in high school, but it is true though that the 
things that kick the feet up [sic] from under us are drug and 
alcohol issues.
    Senator Murkowski. Yes.
    Mr. Coghill. Those people who are involved in that are 
going to be awful hard to get into internship programs. You 
have to go looking for them and that is unfortunate, so as soon 
as they engage in the system, whether they get charged for an 
offense, what we can do on risk assessment issues and needs 
assessment issues is going to be very important, so I'd say 
that that has become more apparent to us than ever before that, 
on the front end, we can do things as well as the recidivism 
reentry, there's many things we can do on the front end. And 
this justice commission that we're all working on is looking at 
some of those things and there are practices that other states 
are doing that I think we can benefit from, so I think it will 
be cross cultural, but beneficial and it brings kind of a 
community approach to it.
    Unfortunately, it's not going to be as good as a small 
community, but it'll be those affected in that community will 
be a part of it.
    Senator Murkowski. Other comments to that? Natasha?
    Ms. Singh. Thank you, Senator, for that question. Greg 
Bringhurst and I are also urban Southside Natives from 
Fairbanks, Hunter Hornets. So I think this question is very 
interesting. Currently, Alaska Native tribes have sovereign 
authority over the domestic relations of their tribal members 
and that authority extends outside of the village communities, 
extends to the urban centers.
    I see the tribal court system can work for urban residents, 
urban tribal members. I think it would take some agreements 
between tribes--but we could replicate it and I could see 
getting the community involved in those circles for the Native 
people of Fairbanks and Anchorage. I think we do have that 
authority, I think with additional confirmed authority and 
funding, it could be replicated definitely.
    Senator Murkowski. Let me ask about the preventive piece 
because when you talk about justice reinvestment, the best way 
to invest is to not have to have this level of system, an 
expensive system that sometimes works, but unfortunately, we 
see the model repeat itself too often that it's not working and 
it's extraordinarily costly.
    One of the things that we've been discussing within the 
Indian Affairs Committee really the past six months or so has 
been the impact of trauma. The impact of historical trauma, 
trauma in an individual's life that leads to this lifetime, 
quite often, of just a pattern of behavior that is not healthy, 
not healthy for the individual, not healthy for the others 
around it and very, very destructive.
    And I've been working with Senator Heitkamp from North 
Dakota, we have co-sponsored this legislation that moved 
through the Senate regarding the Native Children's Commission 
and a part of what we are looking at is the trauma that comes 
to children, whether it is through observing acts of violence 
within the home or being the victim of assault or violence or 
sexual assault and then the impact then on the individual.
    The statistic that we have here in Alaska, 40 to 45 percent 
of the children that are in custody in our State's juvenile 
system are Alaska Native children, is really a staggering 
figure. And so you think about that population and what they 
have been exposed to as young children and then how that will 
play out as they grow older and the impacts that will be on 
them and their health and those around them.
    What, if anything, and I'm probably looking to you, Mr. 
Jessee, for this one, what are we doing to try to better 
understand the impacts of early childhood trauma or it doesn't 
have to be early childhood, the impacts of trauma and then what 
that leads to as part of the involvement in a system, most 
notably the Corrections system, the Juvenile Justice system. 
What are we doing to examine this?
    Mr. Jessee. Well, the good news is that we do have a lot of 
data now through the adverse childhood experience research 
that's been done. We know exactly what you're saying, the 
higher the incidents of adverse childhood experiences, the 
worse outcomes that we have. And not just the ones you normally 
expect, which is criminal behavior or addiction, those sorts of 
things, but increased heart disease, increased hypertension, 
increased depression. So we now know that there's that link, so 
what are we doing, what can we do to change that trajectory? 
Well, a lot of it's going towards a trauma informed system of 
care at every single level.
    A good example is the Anchorage School District still 
expels and suspends kids over and over and over for behavior 
that can be traced back to trauma experiences. Now in other 
places like Washington, for example, in Walla Walla, an 
alternative high school sort of got the message and went well, 
wait a minute, if this ASIS (ph) stuff is true, then when a kid 
acts out and all we do is suspend them or expel them, we're 
just re-traumatizing them, we're just adding another ace onto 
the list.
    And so they've gone to a trauma informed system in this 
alternative high school where when Greg comes in in the morning 
and sits down and his teacher says open your book and Greg says 
hey, F you, well, we're not going to suspend him, what we're 
going to do is sit down and say Greg, what's going on, you 
know, you sure came in this morning with an attitude, is there 
something going on? And what they found out is kids would say 
well, yeah, my mom got drunk last night and beat the crap out 
of my brother. And so they start to work with these kids. That 
school went from graduating six to seven kids a year to 
graduating 50 kids a year just by changing the approach that 
they used.
    Even in Division of Juvenile Justice in Anchorage at 
McLaughlin Youth Center, which I know you're familiar with, 
they went to trauma informed care on their detention and 
security units and even long-time juvenile officers, the most 
jaded if you will, having spent years with these kids that were 
very negative about oh, we're just going to cottle these kids, 
you know, what they need is a firm hand. After watching their 
incidents of restraint and seclusion and physical violence go 
through the floor, even they, when you take a tour there, will 
tell you boy, this works.
    So we're learning, we're learning that we need to approach 
these kids and it's not just kids. Adults are just kids with 
trauma that grew up and got older, and you know, they're still 
going through all of those post-traumatic stress systems, so if 
we start treating people like they're victims of violence and 
victims of trauma and using trauma informed strategies, we can 
turn the curve, we can make a difference. And the tribal courts 
are doing it, therapeutic courts are doing it, the Juvenile 
Justice System's doing it, we can turn the curve.
    Senator Murkowski. Okay, that's encouraging. Let me ask 
about some of the reentry programs. I've had an opportunity to 
see some of what we're doing here and see some of the 
successes. Are we--recognizing that you've got, again, the 
geographic diversity, you have some places that have more 
programs that are more adept, more capable, perhaps a little 
bit more mature in terms of what they have been able to do, are 
we seeing some examples outside of the Anchorage area, say for 
instance, in Fairbanks, Barrow, Kotz, Nome, are bigger 
communities maybe down in Southeast where we're seeing some 
real successes with making a difference with the reentry, the 
support that is there. You mentioned--and I appreciate the very 
specific areas that you've given us from the federal 
perspective that we can look to. Let's help with housing, let's 
help with some of the--there's support for recovery programs, 
let's help with the tribal courts. But are we seeing some areas 
that are just doing much, much better than others and so we've 
got some models that we should be looking to as we're trying to 
build this out?
    Ms. Morris. I'll speak to that----
    Senator Murkowski. Yes.
    Ms. Morris.--I do know that Bristol Bay also has a reentry 
program they're developing and I also want to add that, when 
we're talking about reentry services where we're talking about 
tribal courts and we're talking about elders panels and we're 
talking about community diversion programs. In small, rural 
communities, they are the ones that have and are acting as the 
reentry programs, they're the ones that are the parties 
providing the supportive services to the individuals when 
they're returning to the communities.
    And I would give an example with our reentry program, a lot 
of times when the individual is able to go back to their home 
community or their home village, we, a lot of times, work with 
either the healthcare organization, the tribal court, the 
tribal council to make sure that there are those support 
services.
    Senator Murkowski. So you will contact them?
    Ms. Morris. Yes, we'll reach out to, yes. We'll reach out 
to the individuals in the community to make sure that there is 
a support system and an individual, as part of that, has to be 
able to reenter their community in a good way. You know, how 
are they going to go before their tribal court or their tribal 
elders and apologize for their deeds, hold themselves 
accountable and ask for permission to be a member of that 
community. That's very important within our culture that that 
takes place, so I would say that they do act as in support 
those reentry services.
    Senator Murkowski. So then as part of, again, community 
based justice, in order to successfully reenter, so you've got 
to have a place to live, you have to have some value there and 
that typically comes through a job, but now you've come back 
and you got a felony record and nobody wants to hire you and 
the comment was made, but you know, you can't get your driver's 
license, if you will, you've got all of these limitations. What 
are we doing to bring the community in to say it is okay to 
rent a home to this individual, it is okay to take a chance, 
give this individual a second chance by hiring him and at a 
time when, you know, I don't want to take the risk. This guy 
has a record, I don't want to do that. What are we doing to 
bring the community in to allow for this second chance? Because 
you may have an individual that's got really great intentions 
and he's going to turn his life around and he gets into a place 
where everyone is afraid. I'm afraid to have you as a tenant, 
I'm afraid to have you as an employee, I'm afraid to have you 
as a neighbor because now you're on the sexual offender 
registry. How do we do that part of our community based 
restorative justice, are we working on that?
    Ms. Morris. I would like to respond to that and say one of 
the models that we're looking at and have been utilizing is 
reentry coalition, so we have a statewide reentry coalition, we 
have an Anchorage reentry, Fairbanks, Mat-Su, Juneau. I'm not 
going to list them all, but there is reentry coalitions that 
are pretty active across the State of Alaska and those members 
that serve on those reentry coalitions are doing just exactly 
what you're talking about.
    In addition, at the State level, we do partner with the 
Department of Labor, Alaska Housing Finance Corporation, Alaska 
Mental Health Trust, et cetera, et cetera, in trying to make 
sure that they're aware of the barriers and to partner with 
them in creating opportunities.
    And then the other thing is walking the walk and I would 
say, by way of example, at the Alaska Native Justice Center, we 
have two individual employees that graduated from a reentry 
program and now lead and manage our reentry program, so there's 
that peer to peer continuity and support there.
    Senator Murkowski. Good. Mr. Jessee?
    Mr. Jessee. Well, there's also Cook Inlet Tribal Council, 
has the ChanLyut program----
    Senator Murkowski. Right.
    Mr. Jessee.--which works with local businessmen. We've, in 
our Bridge Home Program, we've looked at indemnifying landlords 
so that, if they bring somebody into one of their apartments 
and there's damages, we say hey, we'll cover the damages so you 
don't have to take that risk.
    There's a movement in the Commission around Ban the Box----
    Senator Murkowski. Yes.
    Mr. Jessee.--so that when you first make your application 
for employment, the first thing they see is a box that says 
yes, I'm a felon. Well, let's get you a little farther into the 
process, so they get to talk to you, know you a little bit. 
Yes, at some point, you're probably going to have to own up to 
what you've done, but at least you've got your foot in the door 
and they've got some relationship with you and now maybe 
they'll take a chance on you instead of just washing you out at 
the front end.
    So there are things that are happening that they need to be 
institutionalized and become more prevalent and well and widely 
distributed.
    Senator Murkowski. I was on an airplane yesterday and a 
gentleman came up and introduced himself to me and he says I'm 
so excited, I'm going down, I'm opening up a restaurant, it's 
part of a franchise and I said well, congratulations. He says 
yes, I'm the first person to be able to buy into this franchise 
in decades and he says I started literally washing dishes and 
that's the American Dream, and he said--he says yeah, I am also 
a convicted felon, had a drug offense some years back and he 
got a job washing dishes. And he worked his way up through the 
company and it was just one of those really strong reminders 
that there are these very good success stories out there. We 
wish that there could be more of them because I looked at that 
guy thinking to myself, he's going to be a leader in the 
community because he's been given that opportunity. You wanted 
to weigh in, John?
    Mr. Coghill. One of the reasons why Commissioner Taylor 
gets so many good remarks is because he's begun working with 
people weeks, months before they get out and had brought to us 
in the--I think the Commission's going to deal with it, but as 
something that I put into the Senate Bill 91, which was with 
job training, which the Department of Labor's working with us--
--
    Senator Murkowski. Yes.
    Mr. Coghill.--schooling, things like that. You can actually 
earn good time to show initiative that is preparatory for you 
getting out, looking at housing, looking at opportunities.
    The other thing that we have to look at though is the 
driver's license, the ability to get a limited driver's license 
is going to be a big deal in Alaska. Anywhere where there's a 
road system, the ability in Fairbanks, you can take a bus, but 
you're talking about a 16-hour day minimum, right?
    Senator Murkowski. Yes.
    Mr. Coghill. It's just slow and it's tedious. So ways we 
can do that under degrees of accountability is going to be 
important. And then the barrier crimes, we will be looking at 
in very earnest in ways that people can be given some relief 
from that and some of the ways that we can get the community to 
help us understand what their barrier is, if for some reason, 
they can get a sanction that covers that barrier, how would 
they see that? The vulnerable--those areas are probably the 
trickiest, but there's so many areas. I think we found over 400 
areas where we have barriers to entry of work that are just 
probably not appropriate and they were all done for probably 
some good reason, but they just stacked up in ways that now 
we've made it very difficult for people to work, so those are 
some of the things we'll be looking at, trying to bust through 
some of these real roadblocks to let people be productive.
    Probably the other thing is restoration of families is a 
big deal, whether it's a Native or non-Native families, ways 
that we can get them into some focus group, family counseling, 
some restorative methods there because they're going to be 
related and they're going to be interacting and I think those 
are ways that we have to help them.
    And so I think there are some people that are stepping 
forward on that, we'll look forward to see if we can 
institutionalize that somehow.
    Senator Murkowski. Well, I'm really glad that you brought 
up that piece of it because, again, you know, the hearing today 
is strengthening our Alaska Native families, but you made the 
comment earlier, when we were talking about culturally 
appropriate and recognizing that we've got a military 
population that has its own culture. One of the things that I 
have had an opportunity to look at are some of the programs 
that are out there for our military families when the spouse 
has been deployed for a year and everybody thinks okay, we're 
happy he or she is home and comes back in and families are--can 
be in a very rocky situation for a period of time because of 
the stress and everyone just thinks that well, now you're all 
home and you're unified, the world is good. And the same is 
true, you're home from prison, we're all together now, we're 
all one big happy family, not so much, so what level of support 
is there for the families, I think, is hugely important and I 
know that that's an area that we don't think about that part of 
them. Natasha?
    Ms. Singh. For many of our rural communities, the Alaska 
Native Health Consortiums are the biggest employers, yet we are 
subject to the Indian Child Protection Act, which includes a 
list of other barriers and we have seen--we haven't been able 
to, let's say, hire a construction worker out in one of our 
communities because of a barrier crime. The person might be 
sober, is likely building a house, isn't willing to be in 
control over Indian children or vulnerable adults, but because 
of the implementing regulations and the statute itself, it 
creates issues for us. I really look forward to Senator 
Coghill's work at looking at those State barrier crimes 
because, as you know, the Alaska Native Health Consortiums are 
subject to the State barrier crimes as well for employment 
because we accept Medicaid reimbursement.
    And as the largest employers in rural Alaska, we understand 
those barrier laws are intended to keep the creeps out and we 
want to keep the creeps out, but we want to employ those who 
have been restored.
    Senator Murkowski. Yes. Thank you. We have gone over the 
allotted time, but again, very, very interesting and 
constructive discussion. What you have provided for the 
Committee, I think, is very, very helpful.
    I think it's also important and instructive that we're 
talking about the different partnerships and the different ways 
to collaborate because Senator Coghill and I don't need to let 
you know that, from the State's perspective, budget dollars are 
skinny and they're going to get skinnier and it's hard at the 
Federal level too.
    Where I think we're making a little bit of incremental 
progress, I do think that the funding, the $10 million, it's 
not a lot, but it's a start and encouraging funding to help our 
tribal courts with our PL280 states, that's going to help 
Alaska, it will help other states, but I kind of view it as 
getting our foot in the door to provide for that level of 
support and training.
    And again, Natasha, what you have been doing at TCC and so 
many of those providing this technical support is so huge, but 
we have funding challenges that face us and so how we make wise 
use of the available dollars that are out there is going to be 
key and it's going to require a level of, again, coordination 
and a partnership using best practices, really trying to find 
those economies that will benefit the individuals that have 
been through the system, the individuals that we want to keep 
through the system, but ultimately, trying to ensure that 
Alaska's families and Alaska's Native families particularly are 
strong and healthy.
    So thank you for what you have contributed to the 
conversation today. Again, I'll remind you that we will keep 
the Committee record open for probably a couple weeks now, and 
if you would like to supplement your comments, more than happy 
to receive that. And to those of you who have joined us for the 
hearing, know that you too are welcome to weigh in.
    And with that, again, we thank the staffs that have been 
working on these issues and that we know will work forward 
beyond just this hearing. Thank you and the Committee stands 
adjourned.
    [Whereupon, the Committee was adjourned.]

                            A P P E N D I X

          Prepared Statement of the U.S. Department of Justice
    Chairman Barrasso, Vice-Chairman Tester and distinguished Members 
of the Committee, thank you for the opportunity to submit a statement 
for the record on behalf of the U.S. Department of Justice regarding 
``Strengthening Alaska Native Families: Examining Recidivism, Reentry, 
and Tribal Courts in Alaska.''
    The Department of Justice (``the Department'') is committed to 
working with our state, local, and tribal partners to remove barriers 
to successful reentry and reduce the collateral consequences of 
incarceration. In 2011, the Attorney General established an interagency 
council to coordinate reentry efforts across the executive branch. The 
Attorney General continues to chair the Reentry Council, which involves 
cabinet-level leaders and heads of more than 20 federal agencies.
    The Council was formed to remove federal obstacles to reentry and 
promote approaches designed to improve reintegration. The mission of 
the Council is threefold: make communities safer by reducing recidivism 
and victimization, assist those who return from prison and jail in 
becoming productive citizens, and save taxpayer dollars by lowering the 
direct and collateral costs of incarceration. Due to the broad 
authorities of Council members, the group is able to take on the full 
range of reentry challenges, from employment and healthcare to 
substance abuse treatment, education, and housing.
    The Department views reentry as a public safety issue. Accordingly, 
the Department has also prioritized this issue as part of a Department-
wide initiative, launched in 2009, to enhance public safety in Indian 
Country. The Department's reentry efforts support work at the State and 
tribal level to provide better services and opportunities to Alaska 
Natives returning to their Villages post-detention.
    Under the Department's Office of Justice Programs (OJP) Second 
Chance Act grant programs, there have also been investments in state 
and local reentry programs. Since 2009, OJP's Bureau of Justice 
Assistance (BJA) and Office of Juvenile Justice and Delinquency 
Prevention (OJJDP) have made nearly 700 awards under the Second Chance 
Act, totaling more than $350 million. These resources are being used to 
address a wide range of reentry-related issues, including substance 
abuse treatment, job training, obtaining driver's licenses, modifying 
child support orders, and expunging criminal and juvenile records. 
Tribes can use both Second Chance Act funds and funding available under 
the Department's Coordinated Tribal Assistance Solicitation (CTAS) to 
establish or enhance reentry programming.
    The Department's Office of Justice Programs also provides reentry 
training and technical assistance. With OJP funding, the American 
Probation and Parole Association (APPA) delivered on-site assistance to 
the Bristol Bay Native Association's Prisoner Reentry Coalition. The 
APPA provided information on effective reentry strategies and worked 
with the Coalition on modifying those strategies to best fit the Alaska 
Native population. In addition, the APPA delivered motivational 
interviewing training to Village Public Safety Officers.
    This year the APPA hosted a webinar, also through OJP funding, on 
``Reentry in Alaska: A Grassroots Approach to Reducing Recidivism 
through Community-Based, Collaborative Reentry Programs.'' The webinar 
educated Alaska Native tribes and other participants about the reentry 
process and key components to successful reentry programing, including:

  <bullet> The creation, organization and sustainability of a 
        grassroots, community-based re-entry program that serves native 
        and non-native reentrants;

  <bullet> The importance of collaboration among the courts, the 
        Department of Corrections, state agencies, non-profits, and 
        community organizations with community-based re-entry programs;

  <bullet> The unique challenges a community-based reentry program 
        faces when serving Native Alaskans, especially those who must 
        live in an urban setting for post-release treatment; and

  <bullet> How to measure success.

    Another OJP grantee, the Council of State Governments, provides 
online resources (http://csgjusticecenter.org/reentry/issue-areas/
tribal-affairs) and other resources to tribal communities on reentry 
issues.
    The Department understands that, in order to achieve positive 
outcomes for tribal youth and adults who come into contact with the 
justice system, there must be strong tribal justice systems, which 
often means a good tribal court system. Funding for tribal courts has 
always been an important part of the Department's Consolidated Tribal 
Assistance Solicitation, and we have supported a number of tribal court 
projects for Alaska Natives.
    For example, the Tanana Chiefs Conference is using CTAS funds to 
support the development of new tribal codes, enhance communication 
among tribal courts in their region, and implement Circle peacemaking 
and tribal-state court sentencing collaboration. The Kenaitze Indian 
Tribe is using CTAS funds to build the capacity of their Court 
Appointed Special Advocate program and enable native foster homes to 
serve families referred by tribal and State Courts. OJP has also 
provided technical assistance to help the tribe and the City of Kenai 
set up a joint jurisdiction court to address non-violent substance 
abusing adult offenders in the Kenai area. Through OJP's Tribal Civil 
and Criminal Legal Assistance Program, the Alaska Legal Services 
Corporation, partnering with the Association of Village Presidents, 
assists tribes in the Yukon-Kuskokwim Delta through a tribal court 
support group with code development or enhancements, training on 
various topic areas and tribal court capacity development.
    Currently, OJP is also working with the Bureau of Indian Affairs to 
update the Model Indian Juvenile Code, which assists federally 
recognized tribes in creating individual codes focused on juvenile 
matters. The Code specifically addresses issues affecting tribal youth 
arrested for alcohol and/or drug-related offenses in Indian Country. It 
will also provide guidance for tribes interested in developing 
specialized court dockets such as juvenile wellness courts, peacemaking 
courts, and teen courts. The model Code and related guidance will be 
available to any interested tribe or Alaska Native Village.
    Thank you again for the opportunity to discuss some of the efforts 
of the Department of Justice to address these important public safety 
issues. We will continue to look for ways to provide meaningful support 
to Alaska Natives and Alaska Native Villages and to collaborate on 
these issues with the State.
                                 ______
                                 
  Prepared Statement of the Association of Village Council Presidents
    Thank you Honorable Senator and Chair, Lisa Murkowski, and 
distinguished members of the Unites States Senate Commission on Indian 
Affairs for the opportunity to present this testimony on behalf of the 
56 tribes and villages served by the Association for Village Council 
Presidents in Bethel, Alaska.
    Tribal Court development for Alaska Native Tribes is necessary now 
more than ever. Alaska Natives are more likely to have high recidivism 
and reentry rates than any other race because the data shows us this. 
According to the Alaska Judicial Council, Alaska Natives make up about 
37 percent of felony offenders in comparison to making up 14.7 percent 
of the entire Alaskan population and 1.2 percent of the U.S. 
population. More alarming is the fact that Alaska Natives represent 48 
percent of reoffenders within two years of their first offense and 37 
percent of those convictions are upheld. Alaska Native males are the 
highest in the state to reoffend and to be reconvicted.
    Tribal Courts in Alaska make up very small numbers in comparison to 
the 229 tribes. The Yukon-Kuskokvvim Delta Region tribes has 56 tribes 
and villages in its region and, according to a recent survey of those 
tribes, only 8 tribes responded that they have tribal courts. Data 
involving tribal courts is difficult to obtain because most tribal 
courts are developed with one-time grant funding and many judges serve 
as volunteers in some villages. For some tribes, the Tribal Council 
serves as the tribal court in matters concerning child custody and 
protective orders in order to retain their judicial authority in ICWA 
and VAWA cases. Once the funding for tribal courts is gone, however, it 
appears that the tribal court becomes defunct due to sporadic funding.
    While alcohol and substance abuse remain overbearing issues in our 
communities, we realize that we have the tools to combat these social 
ills that often lead to instances of criminal activity and neglect or 
abuse of children. The trickle-down effect costs the Federal Government 
dollars through COPs grants that are awarded to states and tribes as 
well as emptying the state funding sources. The average cost of flying 
an alleged perpetrator into Bethel Alaska from any village in its area 
is $400.00. This is on top of paying for the Alaska State Trooper's 
time to escort the individual to Bethel, house the alleged perpetrator, 
use of state or municipal judge's time, court staff time, as well as 
the cost of returning the person back to the village is insurmountable.
    Eradication of alcohol abuse is another issue that we have 
researched at AVCP and have found that, without use of the culture and 
the help of the villages themselves, it is nearly impossible to address 
the real issues for self-medication by use of alcohol or other 
substance abuse. AVCP's Healthy Families initiative has created a 
treatment program incorporating healing methods for various social 
issues. Alcohol abuse and suicide rates are deeply rooted to the 
cultural and historical trauma experienced by today's Yup'ik people. 
This is why circle sentencing, restorative justice or peacemaking 
circles are a solution to this issue. Somehow tribes in Alaska need to 
be empowered to use their own resources, which are the people, the 
culture, the way of life, to address the abuse of substances and, 
without funding for those court related programs, it is going to 
continue to be an issue that is dealt with inappropriately by state 
agencies. Criminal misdemeanors that take place within Alaska Native 
Villages are local issues that need to be treated on a local level by 
people, families and community resources.
    How do we empower tribes, given the bureaucratic procedures of 
intertwining the Office of Self-Governance, the Bureau of Indian 
Affairs, Department of Interior, Department of Justice and other 
federal and state agencies to begin funding tribal courts in Alaska?
    The Indian Law and Order Commission (ILOC) has an answer to the 
dilemma. The Roadmap for Alaska includes these suggestions from ILOC:

        1. Amending ANCSA to Overturn Alaska v. Native Village of 
        Venetie Tribal Government, 522 U.S. 520 (1998), whereby the 
        Supreme Court decided that the Native Village of Venetie was 
        unable to collect taxes because the tribe was unable to own its 
        own land.

        2. Clarifying that Native Allotments and Townsites in Alaska 
        are Indian Country, which is a long-standing argument and 
        basically would fix the ANCSA problems that occurred after 
        Alaska was purchased.

        3. Allow ANCSA Corporation Lands to be Transferred to Tribal 
        Government and put into Trust.

        4. Revising VAWA to Eliminate the Alaska Exclusion, which was 
        done in December 2014.

        5. Congressional Affirmation of Inherent Criminal Jurisdiction 
        of Alaska Tribes.

    Reaffirmation of the sovereignty of Alaska Native tribes is a huge 
issue for the advancement and empowerment of these tribes. Even though 
remote villages range in size from small numbers to large populations, 
the right to be self-governed is a right shared by all Native 
Americans. This right has unraveled throughout legislative and 
historically intrusive law throughout the history of Alaska and its 
Native tribes. Alaska Native tribes have the right to be self-governed. 
The only way that the 56 tribes and villages in the Yukon-Kuskokwim 
Delta Region are able to continue is through their strength in their 
culture, the subsistence traditions and the will of the people. Little 
has been done throughout history to preserve the strong culture of 
Alaska Native people on the part of the state and Federal Governments. 
Now is the time to make changes that empower the tribes of Alaska 
Natives. Now is the time to make history right. AVCP is in support of 
enacting all five of the Indian Law and Order Act Commission's 
recommendations to move toward self-sufficiency for Alaska Native 
tribes.
    Lastly, to ignore the needs of Alaska Native tribes is to ignore 
our own citizens who are also constitutionally and congressionally 
protected people. The continued support of the U.S. Commission on 
Indian Affairs of allowing Alaska Native tribes to fully exercise their 
sovereign immunity, jurisdictional empowerment, and assisting these 
tribes in creating tribal restorative justice programs to address 
recidivism, reentry and especially tribal courts is a step in that very 
direction. We realize that we often compete with other Public Law 83-
280 states for funding, but Alaska, now more than ever, needs to be 
recognized as a state of emergency when it comes to judicial equality. 
We have no market for Indian gaming in Alaska, as is the case for other 
tribes and many of our remote villages has little to no businesses to 
leverage economic opportunities. For the tribes of Alaska to develop 
tribal courts where there are none and to enhance those court systems 
in existence, we urge Congress to look to allocate funding for the 
Alaska Native Tribes in order to create more opportunities to exercise 
sovereign immunity for tribal courts and supportive programs that will 
address recidivism and reentry.
    Again, AVCP thanks Senator Murkowski for supporting H.B. 2822 and 
we urge this commission to recommend that the Alaska Native Tribes 
receive a majority of the proposed funding through that bill. In the 
most conservative and centralized way of developing tribal courts in 
Alaska, AVCP estimates that $7 million would create up to 30 tribal 
courts for our 56 tribes and villages. Without this option, we are 
concerned that state legislation will continue to set aside tribes as 
viable options for solving the disparate numbers of Alaska Natives 
entering the state court system and infringing upon the rights of 
Alaska Native tribes to be self-governed.
    Thank you, Quyana, Honorable U.S. Senate Commission on Indian 
Affairs members for taking the time to visit with the stakeholders of 
the Alaska Native Tribes and Villages and to hear our testimony on this 
very important issue. \1\
---------------------------------------------------------------------------
    \1\ Written and prepared by Monique Vondall-Rieke, J.D., Director 
of Tribal Justice Center and Liz Pederson, General Counsel for the 
Association of Village Council Presidents. AVCP, P.O. Box 219, Bethel, 
AK.
---------------------------------------------------------------------------
                                 ______
                                 
     Prepared Statement of Audrey M.L. Hudson, Mayor/City Manager, 
                      Metlakatla Indian Community
    Chairman Barrasso, Vice-Chairman Tester, and distinguished Members 
of the Committee, including our friend from Alaska, Senator Murkowski, 
I submit this written testimony to supplement the testimony you 
received in person during your August 20, 20 1 5 field hearing in 
Alaska, which I was not able to attend.
    First, we thank you for holding this important field hearing 
focused on strengthening Alaska Native families through tribal court 
systems. The central unit, and foundation of all communities, whether 
Alaska Native or not, is the family. Without strong and healthy 
families, no community can develop in a way that improves social, 
economic, and environmental conditions simultaneously. Resilient 
families create resilient communities.
    We also thank you and want you to know of our support for the 
following pending legislation:

  <bullet> Thank you to Senator Murkowski for her hard work and 
        leadership in including $10 million in the Senate version of 
        the FY 2016 Interior Appropriations bill for training and 
        technical assistance for tribal courts (including those in 
        Public Law 280 states). We sincerely hope that the final FY 
        2016 appropriations legislation includes this increase. We 
        support your Committee's efforts to work with the House and 
        Administration to get that done.

  <bullet> We thank you, Senators Barrasso and Tester, for your work in 
        developing S. 1704 last month, which would allow tribes to 
        finally directly access the Crime Victims Fund, which would, if 
        enacted, be an important source of financial support for 
        families and children exposed to violence and crime.

    Our statement also urges the Committee to play a lead role in the 
following efforts that we believe will contribute significantly to 
Alaska Native systems of justice and thereby strengthen Alaska Native 
families:

  <bullet> Recurring and base funding for tribal law enforcement, 
        public safety and tribal court systems;

  <bullet> Improved coordination between the Departments of Interior 
        and Justice for necessary training and funding of tribal 
        justice systems;

  <bullet> Provide funding for the recently announced Departments of 
        Justice and Interior plans to increase tribal access to federal 
        criminal databases.

  <bullet> Increased funding for the broad array of services and 
        training needs that impact foster youth who come through our 
        court systems, including therapeutic foster homes, training for 
        magistrates, and the Court Appointed Special Advocates program. 
        We would like to pilot an Alaska-specific CASA program.

    The Metlakatla Indian Community (Tribe) is a strong and resilient 
community, notwithstanding our difficult history overcoming adversity 
and multiple challenges, even to this day. I am Audrey Hudson, Mayor of 
the Metlakatla Indian Community located on the Annette Island Reserve 
in far southeast Alaska. I have been Mayor since 20 1 3 and am the 
first woman elected to this position. I am proud to serve in that 
capacity, and as Mayor, I oversee the affairs, programs, services, and 
staff of a wide range of tribal governmental, natural resource, health, 
and tribal justice professionals.
    The Tribe is located on the Annette Island Reserve in southeast 
Alaska, a land base of 87,000 acres, plus adjacent marine waters. The 
Tribe has the only reservation in Alaska as we opted out of the Alaska 
Native Claims Settlement Act (ANCSA), thus preserving our trust land 
and waters.
    Our written testimony comes from the experience of having tribal 
trust lands in Alaska, tribal jurisdiction over those trust lands, and 
our long history of implementing tribal justice systems over those 
lands, our membership, and the people who live on the Island. What is 
unfortunate, and all too common, in the conversation about tribal 
justice systems in Alaska, is the framework that non-Alaska Natives use 
when discussing the situation, in which they decry the absence of 
tribal justice systems.
    It is important, at the outset of these comments, to make clear: 
Alaska Natives across the entire State have implemented local, tribal 
specific justices systems since time immemorial. Notwithstanding 
settlement, Public Law 280, Alaska Native Claims Settlement Act 
(ANCSA), and the lack of federal funding for tribal justice systems, 
Alaska Native cultures are intact, and have a continuous connection to 
customs, traditions, and tribal- and village-specific justice systems 
that have worked in the past, and continue to work. Metlakatla is one 
of these cultures, and I want to acknowledge all of the other cultures 
in our State and region who are administering traditions, customs, and 
other forms of justice systems.
    Metlakatla is, admittedly, a unique example. With our reservation, 
we have governed through the development and implementation of a wide 
range of civil and criminal codes. As our reservation extends into the 
marine water 3,000 feet from our shorelines, we regulate our natural 
resources from everything to land use and fisheries. We have developed, 
and adapt and revise as needed: juvenile justice systems, domestic 
violence prevention programs, Indian Child Welfare Act (ICWA) programs, 
and family law codes that reflect our tribal history and customs. We 
have long experience in protecting our families, and we are prepared to 
meet the new challenges and opportunities ahead, such as those afforded 
by the reauthorization of the Violence Against Women Act (VAWA) 2013.
    However, our successes at Metlakatla are more attributable to our 
internal tribal stability and the visionary nature of our tribal 
leaders, past and present, than those successes are attributable to the 
support of the Federal Government. If the purpose of the field hearing 
is to take in information from Alaska tribes on how to support local, 
tribal efforts to further develop tribal courts and justice systems, 
then our experience is important for the Committee members to 
appreciate.
    Funding: The federal approach to tribal justice systems and courts 
is a system that lacks accountability, steady funding, and inter-
departmental cooperation. Given the size of our reservation and the 
complex issues we regulate, the public safety, justice, and courts, the 
funding we receive through the Bureau of Indian Affairs (BIA) self-
governance is dangerously low. Last year, we reprogrammed $150,000 from 
other self-governance funds into our tribal courts systems to 
supplement the mere $20,000 we received in that line item. On that 
$170,000 of BIA self-governance funds ($150,000 of which is 
reprogrammed from other needs) we maintain the court administration, 
three magistrates, and two appeals court judges. I challenge the 
Committee members to find even one local government, be it municipal, 
regional, or county, that maintains a trial court, appeals court, 
judges, administration, and court-related staff on such a shoe-string 
budget.
    The Tribe regulates and provides public safety and community 
justice programs over its 87,000 acres, plus marine waters, for under 
$800,000 total in BIA self-governance funding, inclusive of courts. 
Again, I challenge this Committee to find another government with that 
land base and jurisdictional reach to provide public safety and courts 
for that amount of funding. That government does not exist in the 
United States, other than at Metlakatla.
    The BIA is not in the business of running tribal courts and does 
its best to advocate on behalf of tribal justice systems, but the BIA 
has never been able to move tribal court systems and needs to anywhere 
but the bottom of the funding ladder. At the same time, the Department 
of Justice (DOJ) has taken on some increasing role in coordinating and 
supporting tribal justice systems and courts, but there is no base 
funding for tribes within DOJ. In 2010, the DOJ developed the 
Coordinated Tribal Assistance Solicitation following input from tribes 
with the goal of streamlining how tribes and Alaska Native communities 
apply for funding opportunities such as: the Community Oriented 
Policing Services; the Office of Justice Programs; and, the Office on 
Violence Against Women. However, funding is highly competitive and 
resources to develop proposals necessary to compete for those funds are 
scarce.
    BIA and DOJ programs come and go, and competitive grant and funding 
programs are not a match for already over-burdened tribal planners and 
grant writers. Even the recent joint effort of DOJ and DOI to provide 
tribal access to federal criminal databases--which is an important 
opportunity and positive collaboration--came with the proviso by the 
DOJ that Congressional appropriations will be necessary in order for 
tribes to make full use of the opportunity. Until DOI and DOJ funding 
is fully coordinated, provides stable recurring base funding, and until 
both Departments fully understand the challenges facing tribal courts 
and justice systems, the Federal Government will continue to lack 
accountability for Alaska Native families. These families pay the price 
for the lack of tribal justice systems. The State of Alaska has one 
Alaska State Trooper for approximately every 1 million acres, so 
again--no accountability, no funding, and no service delivery for 
Alaska Native families.
    The Committee needs to understand that, even with our trust land at 
Metlakatla, there is no tax base to pay for law enforcement, public 
safety, and tribal court systems. Economic development opportunities 
and capital investment in the reservation economy already substantially 
lags the surrounding region. The Committee should understand that there 
is no silver bullet or immediate way for Alaska's tribes to create a 
tax base to meet program and service needs, including the social and 
justice programs necessary for safe families. The Committee must 
explore how to create a recurring federal funding base for tribal 
courts and justice systems, and not just by creating a budget category 
in the DOI Green Book and then underfunding that program or that 
Department. Funding is needed across all Departments, but particularly 
with coordination between DOI and DOJ for juvenile justice systems, 
funding to meet the historic gap in domestic violence intervention 
strategies, funding for tribal code development and tribal court 
trainings, such as the addition that Senator Murkowski has included in 
the Senate 2016 Interior Appropriations bill. That is a starting place. 
This Committee has the capacity to create opportunities for the 
interDepartmental cooperation and coordination that is necessary, and 
again, do so with an eye towards a recurring funding base that tribes 
can count on to staff up tribal courts and justice systems.
    Family and Juvenile Justice Issues: With respect to Metlakatla 
families and jurisdiction, we see the gaps that exist for the children 
who come through our court system. The confusion over State and tribal 
jurisdiction too often creates gaps in funding for foster care, 
particularly children in need of therapeutic foster care. The question 
arises as to who will seek and administer those funds, and funding for 
that type of care is already too low. We need funding to train and 
support additional therapeutic foster families so that when children 
come through our courts in need of help, our magistrates know that 
support and help is there. More funding is needed for wrap-around care 
for vulnerable and special needs foster children, who are the most 
likely to come through our court system. Our magistrates need training 
on what services are available as well, since the landscape is 
constantly changing.
    We see the benefit of the Court Appointed Special Advocates (CASA) 
program with special advocates for our children, but again, funding is 
lacking to roll that program out in the Metlakatla Tribal Court at the 
level needed to meet needs. We encourage the Committee to examine ways 
to fund CASA programs, and Metlakatla offers its assistance in 
participating in a Pilot Program to create a model for tribe-specific 
CASA advocates in Alaska, should Congress support such an effort.
    We encourage the Committee to come, with all members present, back 
to Alaska and visit Metlakatla. We have built systems and tribal 
programs that can provide examples for the rest of Alaska. At the same 
time, when you visit you will see the challenges we face, with 
uncertain funding, little federal coordination, and substantial unmet 
needs in the face of families struggling in a weak local and tribal 
economy.
    We appreciate the opportunity to provide this written testimony, 
and encourage you to think of yourself as a part of the larger family, 
the extended family, of Alaska Natives. Like all families, in times of 
need, the rest of the family is there for support. We need your 
support, now more than ever.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
